                   General        Office of
                   Services       Inspector
                   Administration General     Washington, DC 20405




 OCT 291m2

Honorable Gerald P. Carmen
Administrator
General Services Administration
Washington, DC 20405

Dear Mr. Carmen:

The following semiannual report of the Office of Inspector General
for the period April 1, 1982 through September 30, 1982 is sub-
mitted pursuant to the Inspector General Act of 1978 (Public Law
95-452, Section 5(b).   In accordance with the law, you are required
to submit this report to the Congress within 30 days, together with
any comments you deem appropriate.

The report is divided into two parts. The first part describes the
major audit and investigative results of the Office of Inspector
General for the six month reporting period, and is organized to
conform to the specific requirements of the Act. The second part
discusses the organization and staffing of the Office of Inspector
General and summarizes its operations during the period.

Despite staffing cutbacks and an acute shortage of operational travel
funds, the Office made significant contributions during this period.
We identified a number of major program areas within the General
Services Administration which presented opportunities for improving
program results with increased economy and efficiency.  In these
and other program areas, recommendations were made to reduce vul-
nerability to fraud, waste, and abuse.

Top management has been both receptive and responsive to our recom-
mendations. Your support has brought us closer to our mutual goal
of improved agency operations.

Sincerely,


             /</
~
                   "7,   ,
 , ~?:~:.X~~
   EPH A. SICKON
 nspector General

Enclosure
                        EXECUTIVE SUMMARY


This six-month period was marked by significant accomplishments
in spite of several severe constraints on Office of Inspector
General (OIG) activities. Handicapped by staffing cutbacks and
a lack of operational travel funds -- the lifeblood of a regional
audit and investigative function -- the Offices of Audits and
Investigations conducted reviews that resulted in substantial
benefits to the Agency.

At the same time, we worked with GSA management to address sev-
eral significant policy-level issues confronting the Agency.
For example, the OIG was instrumental during these six months in
focusing Agency attention on the need for an improved system of
audit followup in GSA.  Through a closely coordinated effort with
Agency management and with the full support of the Administrator,
a GSA Order has been developed that will establish substantially
revised policies, procedures, and responsibilities for audit re-
solution and followup.  The Order, which is now being circulated
for final Agency concurrence, will bring GSA into full compliance
with Public Law 96-304 and OMB Circular A-50 (Revised).   It will
also directly address the concerns repeatedly expressed by Congress
about inadequate Federal Agency performance in this area.

Within the Office of Inspector General, this period was charac-
terized by significant management improvements. With the filling
of the OIG Counsel and two Assistant Inspector General positions,
the top-level OIG management team was made virtually complete and
we were able to move ahead to formulate a clear strategy to guide
the operations of the Office. At the same time, OIG adminis-
trative operations were streamlined; a comprehensive OIG manage-
ment information system was implemented; and OIG capabilities to
identify and focus OIG resources on areas of potential review
within Agency operations were enhanced.

     A.   Audits

We issued 382 audit reports during this period; 112 addressed
internal operations, 221 involved GSA's contracting function,
and 49 related to inspections. The audits recommended almost
$64.3 million in cost avoidance and approximately $25.8 million
in cost recoveries. Based on recommendations in these reports,
as well as from recommendations made in prior periods, management
has committed itself to avoid some almost $42 million in costs,
and to take steps to recover approximately $4 million.   In ad-
dition, the audits resulted in unquantifiable savings to the
Agency in terms of increased program effectiveness and operational
efficiency.   The following examples will serve to illustrate the
nature of audit accomplishments during this period.




                                i
     - In reviewing two cases where the Agency's failure to
       exercise lease renewal options may result in additional
       costs of between $30.1 million and $42.5 million, we
       found systemic problems in the Agency's recording
       of and followup on lease renewal options. We made
       a series of recommendations to correct those weaknesses
       and GSA management has moved aggressively to implement
       them on a nationwide basis.

          An internal audit disclosed that a major minicomputer
          procurement, estimated to save GSA about $5.2 million,
          would, in fact, cost GSA an additional $5.9 million.
          Advised of our findings, GSA management terminated the
          procurement.

     - A pre-award review of $31.1 million in negotiated price
       proposals (submitted by the same contractor) revealed
       $9.4 million in questioned costs. The audit adjust-
       ments were well received by the contracting officer,
       and we expect that the audit findings will be sub-
       stantially sustained in negotiations.

Details    on our audit accomplishments can be found in Part 1,
Section    I (pp. 1 to 13) and Part 2, Section II (pp. 35 to 40).
Summary    data for Fiscal Year 1982 is contained in Appendix III
to this    report (page 85).

     B.     Investigations

Our investigations staff continued its emphasis on aggressively
pursuing criminal and administrative actions against those
persons or firms who have defrauded or attempted to defraud the
Government.   During this period, the Office of Investigations:

     - opened 366 new investigations and closed 345.

     - referred 38 cases (51 subjects) to prosecuting
       authorities.

     - referred 10 cases to other Federal and State
       agencies for further investigation.

     - secured 16 indictments/informations and 18 con-
       victions on criminal matters referred.

     - referred 86 cases (91 subjects) to management
       for administrative action.

          secured 29 reprimands, 15 employee suspensions,
          1 demotion, and 23 terminations.

     - referred 9 cases recommending debarment of
       20 contractors.


                                   ii
     - secured 5 contractor suspensions and 14 con-
       tractor debarments.

     - processed 867 hotline calls and letters, 39 GAO
       referrals, and 16 other agency referrals.

Details on investigative activity can be found in Part 1, Section
III (pp. 20 to 26) and Part 2, Section II (pp. 38 to 42).  Summary
data for the entire fiscal year can be found within Appendix III
(page 85).

     C.   Counsel

Our legal staff in the Office of Counsel to the Inspector General
referred 7 civil cases (15 subjects) with potential recoveries of
$1.04 million to the Department of Justice.  In addition, five
subpoenas were served to secure information vital to our operations.
Counsel also reviewed over 56 legislative and regulatory matters
during the period and provided comments as appropriate.

Additional information on these activities can be found in Part I,
Sections III (pp. 20 to 26) and V (page 28), and Part 2, Section
II (pp. 42 to 43). Appendix III provides summary data for Fiscal
Year 1982 (page 85).

     D.   Special Initiatives

We have placed substantial emphasis on the development of strat-
egies for the OIG and each operating component. We believe that
communication of these strategies will foster significantly more
effective OIG operations through greater understanding of and
support for the role and function of the Inspector General within
GSA.

A key element of the OIG strategy is providing advice and assist-
ance to GSA management in order to effect better and more current
decisions on significant issues.  The GSA Order on Audit Followup
is illustrative of our efforts in this regard.  Part 2, Section
I (pp. 30 to 34) of this report details similar OIG contributions
in matters pertaining to Agency implementation of OMB Circular
A-76, the GSA leasing program, Multiple Award Schedule contracts,
and the Personal Property Donation Program.

In terms of internal OIG management, we continued to give priority
attention to initiatives mentioned in the last report.  This in-
cludes the IG-wide management information system, a comprehensive
system for identifying and ranking the potential of agency programs
to fraud, waste and mismanagement, and the ongoing need for Fraud
Awareness Training for GSA managers and employees. Today, major
components of the information system are operational, development
of a comprehensive system of program vulnerabilities is continuing,
and more than 1,000 employees have been given Fraud Awareness
Training. We have also made substantial progress in achieving
our goal of collocating and consolidating OIG offices at regional
locations.  These matters are also discussed in Part 2, Section I.


                                iii
                         TABLE OF CONTENTS


EXECUTIVE SUMMARY                                                   i


Part 1 - REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT
         FOR THE PERIOD APRIL 1, 1982 TO SEPTEMBER 30, 1982


         1.    SIGNIFICANT PROBLEt"lS, ABUSES, DEFICIENCIES,
               AND RECOMMENDATIONS FOR CORRECTIVE ACrION
               DURING THE CURRENT REPORTING PERIOD                  1


               A.   Space Acquisition and Utilization               1
               B.   Buildings rlanagement                           4
               C.   Federal Real and Personal Property              5
               D.   Stockpile Material                              6
               E.   Financial Management                            6
               F.   Automated Data Processing                       9
               G.   Other Significant Audits                       11


        11.    STATUS OF SI GNIFICANT RECOMr,1ENDATIONS t-1ADE
               IN PREVIOUS REPORTS ON WHICH CORRECTIVE
               ACTION HAS NOT BEEN COMPLETED                       14

               A.   Significant Audit Recommendations 'V'Jhich
                    Have Not Been Satisfactorily Implemented       14

               B.   Significant Audit Recommendations Being
                    Implemented According to Established
                    Milestones                                     16

      I I I.   ~1ATTERS REFERRED FOR CRHlINAL, CIVI LAND/OR
               ADMINISTRATIVE ACTION AND INSPECTOR GENERAL
               SUBPOENAS                                           20


               A.   Criminal Referrals                             20
               B.   Investigative Referrals                        20
               C.   Criminal Prosecutions                          20
               D.   Investigation Recoveries                       21
               E.   Civil Referrals                                21
               F.   Criminal and Civil Recoveries                  22
               G.   Administrative Referrals Involving
                    GSA Employees and Programs                     23
               H.   Contractor Suspension and Debarment
                    Referrals                                      24
               I.   Significant Criminal Cases                     24
               J.   Subpoenas                                      26

        IV.    UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE   27
         V.   REVIEW OF LEGISLATION AND REGULATIONS                28


        VI.   REPORTS ISSUED BY THE OFFICE OF INSPECTOR GENERAL    29
              FOR THE PERIOD APRIL 1, 1982 TO SEPTEMBER 30, 1982


Part 2 - OFFICE OF INSPECTOR GENERAL ACTIVITIES FOR THE
         PERIOD APRIL 1, 1982 TO SEPTEMBER 30, 1982                30


         I.   OFFICE OF INSPECTOR GENERAL ORGANIZATION,
              STAFFING, BUDGET AND SPECIAL MANAGEMENT
              INITIATIVES                                          30


              A.   Organization and Staffing                       30
              B.   Travel Funds                                    31
              C.   Special Management Initiatives                  31


        II.   OPERATIONS AND STATISTICS                            35


              A.   Office of Audits                                35
              B.   Office of Investigations                        38
              C.   Office of Counsel to the Inspector General      42
              D.   Office of Policy, Plans and Evaluation          43
              E.   Interagency Coordination and Efforts Through    44
                   the President's Council on Integrity and
                   Efficiency


APPENDICES


         I.   AUDIT REPORT REGISTER                                47


        II.   INSPECTION REPORT REGISTER                           81


       III.   SUMMARY OF OIG PERFORMANCE IN FISCAL YEAR 1982       85




                               vi
                       Part 1

REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT
 FOR THE PERIOD .APRIL 1, 1982 TO SEPTEMBER 30, 1982
I.   SIGNIFICANT PROBLEMS, ABUSES, DEFICIENCIES, AND
     RECOMMENDATIONS FOR CORRECTIVE ACTION DURING THE
     CURRENT REPORTING PERIOD

As required by Section 5(a)(1) and 5(a}(2} of the Inspector
General Act of 1978, the following paragraphs present summaries
of significant problems, abuses, deficiencies, and our recom-
mendations for corrective action during the period April 1, 1982
to September 30, 1982.

     A.    Space Acquisition and Utilization

Audit     o~   a Missed Lease Option

At the request of the Regional Administrator in GSA's Region 9,
we initiated a joint audit/investigative review of a missed
renewal option for leased space at 211 Main Street, San Francisco,
California. We verified that the option had, in fact, not been
exercised in time to retain the Government's right to occupy the
space at the base rental rate of $9.20 per square foot.  Since
the missed option covered a five-year period with an additional
renewal option available for a second five-year period, the
Government may have to pay from $24 million to $33 million more
for rental space over the next 10 years.

Our audit disclosed that the lease at 211 Main Street had two
expiration dates because different blocks of space were obtained
at different times. The Public Buildings Service (PBS) Infor-
mation System contained only the later renewal option and expi-
ration date.  As a result, monthly computer listings th.at pro-
vide advance warning of renewal option and lease expiration
dates did not include the earliest date for the 211 Main Street
lease.

Our audit report dated September 16, 1982 recommended that the
Assistant Regional Administrator for Public Buildings and Real
Property: (1) require that pertinent data on multiple block
leases be added to the remarks section of the lease digest until
the PBS Information System is reprogrammed; (2) require that
short synopses of each large or complex lease be prepared and
maintained summarizing pertinent lease data, such as termination
dates and renewal options, and the effect that each supplemental
agreement has had or will have on the lease; (3) require indepen-
dent verification of all initial lease digests and lease digest
updates; (4) require that the coding sheets prepared to enter
original lease data and subsequent changes be retained in the
lease files; (5) have operating personnel obtain basic data from
the lease files when responding to Central Office inquiries or
preparing future lease prospectuses; (6) require regional personnel
to inform the Leasing Branch of any suspected errors in the PBS




                                       1
Information System~ and (7) ensure that the revised draft pro-
spectus for 211 Main Street contains accurate and appropriate
information regarding renewal and expiration dates.

We further recommended that the Commissioner, Public Buildings
Service, have the PBS Information System reprogrammed to provide
information which would enable realty specialists to manage each
block of space separately when a lease has more than one block
or unit.

The Regional Administrator and Commissioner agreed to implement
our recommendations.

Our investigation disclosed that a realty officer orchestrated
the preparation of a lease prospectus for Congress which was
misleading because it did not include the date on which the lease
option expired. As a result of this investigation, the Regional
Administrator proposed the removal of two employees and the sus-
pension of a third employee.

Audit of a Claim for Increased Costs on the Federal Home Loan Bank
Board Building in Washington, DC

As a result of our review of a $1.6 million claim for alleged
Government-caused delays during construction of the Federal
Home Loan Bank Board Building, we recommended on August 10, 1982
that adjustments be made to reduce the cost by $1.5 million.
The adjustments were based upon: (1) unsupported direct costs,
(2) excessive equipment rental costs, (3) overstated wage esca-
lation, (4) unsupported inefficiency costs, (5) overstated home
office overhead costs, (6) unallowable interest costs, and
(7) unallowable profit and other markups.

This claim is currently under the jurisdiction of the GSA Board
of Contract Appeals.

Evaluation of a Change Order Proposal

Our audit report, issued on August 16, 1982, concluded that
a $300,000 credit change order submitted on GSA's VOTRAKON
project in Saudi Arabia was understated by $640,000. A tech-
nical evaluation revealed that actual labor expenditures were
$300,000 less than originally proposed because the level of
effort for many of the labor categories had been substantially
reduced or eliminated by the change order. The remaining por-
tion of the understatement ($340,000) resulted from the con-
tractor's application of an arbitrary profit rate of 10 percent
to the deleted work rather than the actual experienced profit
rate of 71.4 percent.

Resolution of this matter has been deferred until the contracting
officer returns from Saudi Arabia in January 1983.




                              2
Unrestricted Competition Is Needed in the Region 6   Leasi~g
Program

A regional review of GSA's leasing program was performed to
determine regional policy on the solicitation of offers for
leased space. A hotline complaint received by the OIG al-
leged that realty specialists were directed to limit these
solicitations to space which was fully serviced, i.e., space
in which all building services, supplies, and utilities are
furnished.  Our audit report, issued on July 15, 1982, dis-
closed that the allegation was factual and, because offers
for unserviced space were not solicited, competition was
restricted.  Since restricted competition may have resulted
in undetermined excessive costs to the Government, we recom-
mended that the Assistant Regional Administrator, Office of
Public Buildings and Real Property issue new policy guidance
to ensure that offers for both serviced and unserviced space
are solicited and considered in the lease acquisition process.

Management concurred in our recommendation and issued new
policy guidance on July 12, 1982.

Lease Renewal Options

Many of GSA's largest leases contain renewal options which al-
low the Government to continue renting the leased space at a
rate which is often substantially less than the going market
rate.  Such provisions, if not exercised according to the terms
of the lease, can result in substantial Government losses.

An inspection of one leased facility in the metropolitan Wash-
ington, DC area revealed that a lessor had filed a suit contending
that GSA missed a lease renewal option. A legal ruling for the
lessor would result in additional Government costs of $6.1 million
to $9.5 million.  Further, this review identified several potential
problems in the overall procedures utilized by GSA to ensure that
renewal options are exercised on time. Therefore, we recommended
on July 22, 1982 that the Commissioner, Public Buildings Service
instruct each region to conduct a lease-by-lease review to verify
that the records pertaining to renewal notices were accurate and
to ensure that all leases contained clear and consistent provisions
on the requirements for renewal notices. We also recommended that
realty specialists receive reliable "alert" reports to advise them
of upcoming renewal options, and that modifications be made to the
methods used by GSA to draft leases to minimize the potential for
ambiguity.

GSA management has taken steps to implement all of these recom-
mendations. The nationwide search of lease renewal provisions
and records identified several instances wherein options had ei-
ther already been missed or could have been missed had the recom-
mendations not been implemented. There were three missed options
which will result in additional costs of about $74,000 over the
life of the leases.  (These are in addition to the missed lease
option at 211 Main Street, San Francisco, California discussed
previously on page 1.)

                              3
    B.   Builqing~Management

Poor Inspection of Repair and Alteration Contract Work

An inspection of repair and alteration work on a warehouse in
the midwest raised serious concerns over the inspection efforts
of regional GSA personnel assigned to the project. Numerous
contract deficiencies went unnoticed by these inspectors and
other defects and omissions noted during a final inspection were
signed off on even though the contractor had not taken corrective
action.

Our evaluation revealed that the contractor failed to install
21 masonry wall pilasters (a serious violation of contract
requirements and the Uniform Building Code), and thereby jeop-
ardized the structural integrity and safety of the masonry wall
construction.   Even though this failure represents a potential
loss to the Government of approximately $29,000, the monetary
loss is considered insignificant in comparison to the potentially
dangerous situation that was created for personnel working in the
warehouse area.

We recommended on July 14, 1982 that the Regional Administrator
direct the contracting officer to:   (1) either have the contractor
perform the specified work or obtain an appropriate credit for
deleted work; (2) either have the contractor correct the
identified deficiencies or obtain a credit; (3) instruct his
representatives to perform a more thorough review of corrected
items to assure that they are in fact corrected; (4) establish a
procedure that expedites the acceptance of change orders to
eliminate costly delays; (5) recover an overpayment; and (6) take
the appropriate steps to correct as-built drawings for the lightning
protection system in order to have a correct set of drawings for
future reference.  Special emphasis was placed on the need to
analyze the masonry wall construction to ensure its structural
integrity and safety prior to taking any remedial action.

The response from management indicates that cost recovery and
corrective action is underway. A structural analysis is being
performed on the masonry walls and efforts toward improved
inspection performance have been initiated.

Special Review of Controls Over Firearms and Other Property -
Federal Protective Service

On December 11, 1981, management requested that a nationwide
review be performed to determine whether the Federal Protective
Service (FPS) is properly controlling firearms and other sensitive
property. Our review generally showed that even though regional
FPS offices were aware of the required controls pertaining to the
management of sensitive property, controls were either not fully
implemented or were ignored. We found that ammunition was missing,




                                4
unaccounted for and/or inadequately protected; ammunition stock
levels were too high; weapons were not issued in accordance with
regulations; and the number of weapons on hand exceeded the
needs of the FPS.

In four audit reports issued between May 28, 1982 and July 30,
1982, we recommended that:  (1) regional FPS offices establish and
fully implement regulations that would afford adequate safeguards
over sensitive Government equipment, and (2) the FPS conduct a
utilization study to determine ammunition, weapon, and operating
equipment requirements.

The Regional Administrators concurred in our recommendations and
all of the action plans for implementation have been received.

    C.   Federal Real and Personal Property

Proposed Sale of the 49 Fourth Street Property, San Francisco,
California

A review of the proposed sale of Federal property at 49 Fourth
Street, San Francisco, California, which was undertaken at the
request of the Administrator, disclosed that the Agency's
decision to sell the property to the City of San Francisco was
based on insufficient comparative cost data.  Further, we found
that the appraisal obtained by the GSA may have understated the
value of the property.  As a result, there was no· assurance that
the proposed $17.4 million sale was in the Government's best in-
terest.

In our audit report dated September 16, 1982, we recommended
that the Administrator obtain and use a cost analysis that
compared the economic advantages of the various IIsale" and
"exchange" scenarios before determining the final disposition
of the 49 Fourth Street property.  In addition, we recommended
that the Administrator obtain and use an updated and amended
appraisal report that considers the special use benefits which
might accrue to the intended property recipient when negotiating
the sale or exchange terms.
Contracting Procedures for Commercial Appraisal Services Do Not
Assure Adequate Competition

An internal review of the contracting procedures utilized by
the Office of Real Property within GSA's Federal Property
Resources Service (FPRS) found that current practices do not
assure adequate competition. We found that FPRS took the
pos i tion that appraisal services were "personal" or "profes-
s ional" services and, accordi ng to a provis ion of the Federal
Property and Administrative Services Act of 1949, did not




                               5
require FPRS to maximize competition.  Since FPRS negotiated
contracts with a total value of $450,000 without advertising
them, there is no assurance that the contracted services
represent the most reasonable fees available.

GSA's Office of General Counsel rendered an opinion that ap-
praisal services were neither "personal" nor "professional"
services and, therefore, are subject to the provisions of the
Federal Procurement Regulations.  Accordingly, on August 13,
1982 we recommended that FPRS revise its contracting procedures
to comply with Federal Procurement Regulations in order to max-
imize competition.

Management concurred in our recommendations, the action plan
has been approved, and the audit is considered resolved.

    D.   Stockpil~   Material

Deteriorated Roof Adversely Affecting Stockpiled Asbestos

A review of the National Defense Stockpile (NDS) storage pro-
gram revealed that water leaking through the roof of the Baton
Rouge Depot, Baton Rouge, Louisiana had caused deterioration
of the burlap and plastic bags covering stored asbestos.  Al-
though we determined that the asbestos did not pose an immediate
health hazard if properly handled, we felt that continued neglect
could result in a potential health hazard for communities sur-
rounding the depot.

The nature of this situation prompted us to bring the matter to
the attention of the Administrator.  On May 25, 1982, we recom-
mended that the Administrator direct the Commissioner of the
Public Buildings Service, the Commissioner of the Federal Prop-
erty Resources Service, and others, as required, to take imme-
diate action to resolve the asbestos problem.

The Federal Property Resources Service formed a task force to
study the problem and subsequently developed a plan to either
sell or bury the asbestos by May of 1983.
    E.   Financial Management

Internal Controls Over Government Transportation Requests (GTRs)

Reviews of the internal controls used to safeguard and account
for GTRs in five GSA regions disclosed serious weaknesses.
We found inadequate controls over the receipt and issuance
of GTRs at the GSA depot in Franconia, Virginia; inadequate
accounting controls over GTRs maintained in regional offices;
and poor accountability for GTR books issued to individuals.
Other weaknesses included:  (1) physical inventories and




                                6
surveys of GTRs not being conducted as required by GSA reg-
ulations; (2) refunds due the Government for cancelled or
partially used tickets not being collected: (3) GTRs being
used for unauthorized travel~ (4) excessive stocks of GTRs
being maintained in regional offices; (5) GTRs being stocked
at a self-service store for over-the-counter sales contrary
to existing regulations; and (6) inadequate procedures to
safeguard and account for teleticketing equipment and blank
airline tickets.

In Region 9, controls were found to be almost nonexistent and
over 49,000 GTRs could not be located.  Due to the lack of ade-
quate physical safeguards and the absence of documentation for
the receipt and issuance of GTRs, it could not be determined if
the GTRs were lost, misplaced, or stolen.

In the five regional reports issued between April and September
1982, we recommended that:  (1) a comprehensive and detailed
regional directive be developed and implemented for safeguarding
and accounting for GTRs; (2) physical inventories and surveys
of GTRs be performed as required; (3) procedures be developed
to ensure that refunds due the Government for unused or par-
tially used tickets are requested from the airlines; (4) GTRs
be issued only for official authorized travel; (5) existing
procedures be followed in projecting annual GTR requirements;
(6) formal guidance be issued to reaffirm the requirements
that GTRs not be sold in self-service stores; and (7) detailed
regional procedures be developed for securing and safeguarding
teleticketing equipment and blank airline tickets.

Management generally agreed with the findings and recommendations
contained in the audit reports.
Selected Transactions of the Working Capital Fund

A review of the Working Capital Fund (WCF) disclosed that it was
used during Fiscal Year 1981 to fund over $850,000 in activities
which were not authorized by the WCF's legislation, Public Law
79-49. The activities funded included the library, the travel
ticketing office, the correspondence control unit, the Federal
Executive Board, the salaries of chauffeurs, the salary of the
Director of Administrative Services, and a centralized mailing
list service.

We also found that: (1) a management fund, which was established
in the WCF without authorizing legislation, was used to pay most
of the Fiscal Year 1981 costs for the unauthorized WCF activities;
(2) this management fund and the unauthorized uses of the WCF
were not disclosed in the financial statements required by GAO
accounting policy; and (3) over $700,000 in expired appropriations
were used to fund the aforementioned costs during Fiscal Years 1980
and 1981.




                                7
The problems disclosed by this review are generally attributable
to management's noncompliance with the restrictions placed on
the use of these funds by the specific WCF enabling legislation
and by general fiscal statutes. Accordingly, on August 6, 1982
we recommended that action be taken to: (1) fully disclose the
misuse of the WCF to OMB and Congress, and place the unauthorized
WCF activities under direct appropriations in future fiscal years,
or until the WCF legislation is amended to authorize funds for
these purposes~ (2) abolish the special management fund and return
the unexpended balance to the contributing appropriation, and charge
common-use printing costs to the WCF and bill GSA appropriations
under the normal operating procedures of the WCF; (3) ensure that
the financial statements fully disclose all activities which impact
on the WCF; and (4) identify and return funds unexpended in 1979
and 1980 to the appropriations from which they were advanced.

In commenting on the draft report, management concurred in the
findings and recommendations with two significant exceptions.
Management did not agree that unauthorized expenditures were
made from the WCF and objected to the recommendation that a
report on unauthorized use of the WCF be submitted to OMB and
Congress. They contend that using the WCF to pay the costs of
the questioned activities was proper.

Management also took exception to the recommendation to charge
common-use printing costs to the WCF and bill GSA appropriations
under the normal operating procedures of the fund.  They felt
that such billings would not be feasible. We believe that
weekly, monthly, or quarterly billings are feasible and would
provide a basis for more accurate and timely accounting of
expenditures by appropriation.

Because we believe that GSA acted improperly in extending the
use of the WCF before receiving Congressional approval in the
form of a legislative amendment, on August 19, 1982 we requested
a Comptroller General's decision on whether a violation of the
Anti-Deficiency Act (Revised Statute 3679) had occurred.  Final
audit conclusions and recommendations concerning the possible
Anti-Deficiency Act violation will be deferred until a Comptroller
General decision has been rendered.

Controls Over Overtime Use

A regional review of the use and control of overtime payments
disclosed that inadequate management oversight and planning re-
sulted in increased use of overtime which could exceed $240,000.
Further, there were no assurances that overtime was used in
accordance with GSA regulations.  We found that: (1) overtime
was not always properly accounted for; (2) approval for over-
time was not obtained from the delegated level of management;
(3) required overtime reports were not completed or were
inaccurate; (4) alternatives to overtime were not implemented;




                              8
(5) payroll reports generated to validate overtime payments
were not used: (6) field supervisors and timekeepers were not
complying with overtime reporting requirements; and (7) approx-
imately $1,630 in overtime payments were made to employees for
overtime not worked.

In our May 28, 1982 report we recommended that action be taken
to assure that: (1) GSA policy and regulations concerning overtime
controls and file documentation are fully implemented; (2) all
levels of management are directed to evaluate more closely the
propriety and efficiency of utilizing overtime; (3) Premium
Pay Validation Reports are distributed to appropriate levels of
management for review; and (4) procedures are established to
monitor compliance with overtime recording and reporting controls.

Management concurred in the recommendations and is taking the
necessary corrective action.  Additionally, management has re-
covered the $1,630 for the overtime not worked. '

    F.   Automated Data Processing (ADP)

Procurement of Computer Hardware and Software to Support GSA
Operatio_I},§.

During this reporting period we reviewed a major in-process pro-
curement for 26 minicomputers to support the Federal Supply
Service and other GSA regional data processing requirements. We
found that the procurement would cost GSA in excess of $5.9 mil-
lion more than the equipment configuration currently in place
without commensurate benefits.  Accordingly, we recommended on
August 13, 1982 that the procurement be terminated.
Management initiated this procurement as a cost savings measure.
They projected a savings of $5.2 million over a systems life of
five years, based upon the abolishment of seven small computer
centers and the phase out of some outdated peripheral ADP equip-
ment in conjunction with the procurement.

We found that: (1) management had attributed large savings to
the procurement that had nothing to do with it; (2) primary and
secondary users for whom the procurement was be ing made provided
almost no input: (3) no cost-benefit analysis had been prepared
to justify the procurement; (4) inadequate attention was given
to defining and satisfying agency long-range ADP requirements;
and (5) the funding mechanisms being proposed for the procurement
were inappropriate.

Management concurred in all of the recommendations contained in
our report and terminated the procurement.




                               9
National Archives Trust Fund - ADP Procurement

An audit of the procedures utilized in the procurement of a
systems development contract for the National Archives Trust
Fund accounting system disclosed internal control weaknesses
that resulted in an award being made to the highest-priced,
qualified offeror without adequate competition. Our review
determined that the contract amount of $251,422 was almost
three times higher than the bid of the lowest-priced, qualified
bidder.

Because the legislation establishing the National Archives
Trust Fund allows it to be technically excluded from following
Federal Procurement Regulations (FPRs), this procurement was
not conducted in strict accordance with FPR provisions. As
a result, evaluation criteria were not developed until after
proposals were received; only the proposal with the highest
technical ranking was recommended to the contracting officer;
and other acceptable offerors were not given the opportunity
to participate in negotiations or submit "best and final"
offers. We believe that if the FPRs had been followed, the
contract would have been awarded to one of the other lower-
priced, qualified offerors.

We recommended on August 13, 1982 that the National Trust Fund
Board adopt specific rules and regulations to conform with the
Federal Procurement Regulations for Trust Fund procurements.

In their response, management did not agree with certain
findings and recommendations.  The Office of Counsel to the
Inspector General is now addressing the issues raised in
management's response to the report.

Systems Development Activities

We reviewed a systems development project, estimated to have
cost $100,000, which was terminated after being substantially
completed. We determined that poor documentation existed to
support the decision to terminate; GSA systems development
procedures had been ignored; no cost benefit analysis had
been performed to originally justify the project: and intended
users were afforded little or no opportunity to provide input
during the development process.

We concluded that this waste of funds could have been avoided
if GSA's systems development procedures had been followed.
Under such procedures, all systems development efforts are
subject to a process known as the Systems Development Life
Cycle (SDLC) which prescribes general milestones for evaluating
each development effort. A very important segment of the SDLC
is the General Systems Study which provides a basis for deter-
mining whether or not to proceed with the effort by providing



                                 10
information on the significance of improvements to be attained
and their associated cost benefits.   Management took the
position that these procedures were not applicable since the
system represented only an interim system.   In fact, management
initiated action to cancel GSA's systems development handbook
during the course of our review, due to lack of use and its
inadequacy for maintenance and redesign projects.

We recommended on May 7, 1982 that the systems development
handbook be reinstated and used on all future systems devel-
opment projects. We also recommended that the decision to
terminate the project be formally reevaluated and documented.

Management concurred in all of our recommendations, the action
plan for implementation has been agreed upon, and the audit is
considered resolved.

    G.   Other Significant Audits

Investigative Activities of the Office of Oversight

Our review showed that the Office of Program Oversight, Of-
fice of Oversight, had established an investigative unit and
was conducting investigative activities even though it had
not been delegated such responsibility. This situation vi-
olated GSA Orders and assurances given to the Congress by
the Administrator that no investigative responsibility would
be conferred on this office. Additional assurances regarding
potential conflict with the mission of the Office of Inspector
General were also violated.

On September 22, 1982, we recommended that the Administrator
(1) abolish the Office of Program Oversight within the Office
of Oversight, and (2) issue an order stating that the Office
of Oversight possesses no investigative authority or functions.
The Administrator's response to the draft report stated that
(1) certain functions that had been performed in some instances
by the Office of Oversight would be discontinued, and (2) the
order establishing the Office of Oversight would be revised to
eliminate those responsibilities entailing investigative efforts.

We agreed that such actions would generally satisfy the intent
of our recommendations. The revised GSA Order was issued on
October 8, 1982.

Preaward Evaluation of Price Proposals for Office Furniture

We audited three negotiated price proposals (submitted by the
same contractor) totaling $31.1 million for gray metal desks,
contemporary desks, and security file cabinets.  In three audit
reports issued between July 14, 1982 and August 18, 1982, we
questioned $9.4 million in costs. These questioned costs re-
sulted from adjustments to the contractor's proposed labor,
overhead, material, and freight rates.


                               11
Although we have not yet received an official negotiation
memorandum on the subject procurements, the audit adjustments
were well received by the contracting officer. We expect that
the majority of audit findings will be sustained in negotiations.

Review of the Telephone Inventory Accounting System

A regional review of the procedures used by Automated Data and
Telecommunications Service (ADTS) personnel for paying telephone
company invoices found that the inventory of telephone equipment
contained errors that could result in incorrect billings to customer
agencies and incorrect payments to telephone companies.  Further,
the payment reconciliations (Administrative Difference Statements)
between amounts paid to telephone companies versus the amounts
billed by them were not properly prepared. As a result, errors
may have gone undetected.

In the region reviewed, payments to the telephone company during
a one-year period amounted to $19.5 million. Yet, ADTS was found
to rely entirely on customer agencies to report inventory adjust-
ments without any adequate monitoring efforts of its own.  In ad-
dition, even though payments to the telephone company are generated
by the ADTS Telephone Inventory Accounting System (TIAS) inde-
pendently of telephone company invoices, reconciliation of these
two items can take up to five months after the receipt of the in-
voice. ADTS relies upon future months to offset current differences
and does not consider it essential to reconcile balances.

Accordingly, on April 20, 1982 we recommended that GSA: (1) instruct
customer agencies to inventory their phone systems and continually
notify ADTS of inventory changes, and (2) reconcile Administrative
Difference Statements in a timely manner.

The Regional Administrator agreed with our recommendations, the
action plan for implementation has been agreed upon, and the audit
is considered resolved.

Improved Efficiency and Reduced Operating Costs Possible
Through Consolidating Federal Information Centers

A regional audit of the Federal Information Center (FIC) program
was conducted to ascertain whether each of the five offices was
operating economically and efficiently, and to determine whether
there was any duplication in their functions. We found that FIC
offices maintained excess telephone equipment and circuits,
estimated to cost GSA approximately $53,000 annually, and that
actual workload did not support the current staffing levels at
the FICs.  By consolidating the FICs into one centralized re-
gional office and taking advantage of automation in telecom-
munications and retrieval systems, we estimated that $292,000
in annual savings were possible.




                             12
In our audit report dated April 14, 1982, we recommended that
the Regional Administrator first reduce excess telecommunications
equipment and then consolidate the FIes into one regional center.

The Regional Administrator concurred in our findings and recom-
mendations, the action plan for implementation has been agreed
upon, and the audit is considered resolved.




                            13
II.    STATUS OF SIGNIFICANT RECOMMENDATIONS MADE IN PREVIOUS
       REPORTS ON WHDCH~ORRECTIVE ACTION HAS NOT BEEN COMPLETED


As required by Section 5(a)(3) of the Inspector General Act of
1978, this section details all significant matters and recom-
mendations reported in prior Inspector General reports on which
corrective action has not been completed. Because many of the
recommendations are in the process of being implemented and are
proceeding according to milestones agreed to by management and
the OIG, such items are discussed separately.

Much of the input for this section was provided by Agency man-
agement officials charged with tracking the implementation of
audit recommendations.  In addition to management's implemen-
tation tracking activities, the OIG issued 72 followup reports
during the period.  In 82 percent of the followups, management
had implemented all of our recommendations.

      A.   Significant Audit Recommendations Which Have Not Been
           Satisfactorily Implemented

Unliquidated Obligations and Year-End Spending, Region 9

Period First Reported:     October 1, 1981 - March 31, 1982
This audit disclosed two violations of GSA's administrative
control of funds during Fiscal Year 1980. Of our five
recommendations for corrective action, management did not
concur in the two recommendations concerning a violation in
Budget Activity 54 - Major Repairs and Alterations.  These
recommendations were: (1) to prepare and process through
Central Office the necessary accounting entries to establish
an unobligated balance of $822,129 in Budget Activity 54 for
Fiscal Year 1980, and (2) to prepare the necessary reports
required by GSA Order ADM 2200.2D, paragraph l(i).

Both the Regional Administrator and the Assistant Administrator
for Plans, Programs, and Financial Management disagreed with
our conclusion that the allowance was exceeded. The Assistant
Administrator pointed out that Fiscal Year 1980 was the initial
year for the line-item program and that some confusion was
experienced by the regions. Also, he took exception to the
recommendation for reinstituting an unobligated balance. He
felt that our report failed to indicate that the reprogrammed
amount incurred in Fiscal Year 1980 was either in error or
invalid.  He added that he saw no benefit from recreating an
unobligated balance for a period which was closed out two years
ago and for which funds have been withdrawn.

On September 30, 1982, we sent a letter to the Deputy Admin-
istrator apprising him of management's views and reaffirming
our position concerning the violation.



                                14
~stems. ~eyelopment   a l1 d Control

Period First Reported:     April 1, 1981 - September 30, 1981

This review found that the Office of Finance had expended
approximately $265,000 to develop the Stockpile Billing and
Receivables System and then decided to terminate it.  Because
we believed the termination decision was not justified or
adequately documented, we recommended that: (1) the decision
to terminate be formally reevaluated and the reasons for not
implementing the system be thoroughly documented and supported
by data which would be available for review by the Office of
Audits, and (2) the reevaluation specifically address the
reason(s) the system was allowed to proceed to completion before
termination and, to the extent possible, assign responsibility
for this waste of GSA resources in an effort to minimize the
potential for its recurrence.

In his response to the audit report, the Assistant Administrator
for Plans, Programs, and Financial Management disagreed with our
recommendations and stated he did not plan to implement them.
We prepared a fact sheet detailing our position and forwarded
it to the Deputy Administrator on July 23, 1982. The Deputy
Administrator referred the matter to Agency tracking officials.
These officials notified us on September 13, 1982 that they
are reviewing the matter and will make their recommendations
to the Deputy Administrator by mid-November 1982.

Problems Relating to GSA's ADP Systems

Period First Reported:     October 1, 1980 - March 31, 1981

This audit found that GSA had not developed contingency/recovery
plans for its major sensitive computer systems. We made 10 rec-
ommendations for corrective action; two have not been implemented.
They relate to the development of a contingency/recovery plan for
the B-7700 and FSS-19 systems, and performing a risk analysis on
the same systems.

On November 18, 1981, this matter was brought to the Administrator's
attention. On December 21, 1981, the Administrator stated that
he had instructed responsible officials to cooperate in resolving
the matter. We requested status information from the Deputy
Administrator in July 1982 and were advised that the risk analysis
was underway and a target completion date of September 30, 1982
had been established. Upon its completion, target dates would be
established for the development of the contingency/recovery plan.

As of September 30, 1982, Agency tracking officials told us that
the draft GSA Order ADM 2l00.lA, which specifies the procedures for
performing a risk analysis, is currently in the clearance process




                                  15
and should be issued in final form by     July 1983. At that time,
the risk analysis will be initiated.      These same officials fur-
ther stated that the development of a     contingency/recovery plan
is in process and should be completed     by June 1983.

    B.   Significant Audit Recommendations Being Implemented
         ~ccording to Established Milestones

An Approach to Improving GSA's Leas ing    P_r_~g_x:..~I1!

Period First Reported:   October 1, 1981 - March 31, 1982

This compendium report disclosed that GSA must take a more ag-
gressive role in establishing and enforcing policy for leasing.
Toward this end, we made 14 recommendations. Of these, four
were closed based upon the Commissioner's response to the report.

Regarding the outstanding recommendations, Agency tracking of-
ficials have been advised that action has been completed on five
of the recommendations. These officials are awaiting documen-
tation to certify that the actions have been taken.  The remaining
recommendations are proceeding according to established milestones
and should be completed by the end of the calendar year.

Prompt Action Needed to Preserve America's Recorded Heritage

Period First Reported:   October 1, 1981 - March 31, 1982

Our audit of the National Archives and Records Service found that
intrinsically valuable historical documents were not being ad-
equately preserved and protected.  To correct the identified de-
ficiencies, we made eight recommendations for corrective action.
Implementation of all of these recommendations is proceeding ac-
cording to established milestones and should be completed by
August 1983.

Reimbursable Work Authorizations

Period First Reported!   October 1, 1981 - March 31, 1982

We found that GSA was performing work for tenant agencies under
reimbursable agreements without Congressional review and approval.
Thus, we recommended that GSA develop procedures which would re-
quire tenant agencies to cite appropriations when requesting reim-
bursable services to demonstrate that Congress approved and funded
the projects.

Phase one of the corrective action was completed on July 2, 1982;
the second phase is proceeding according to established milestones
and should be completed on January 31, 1983.




                             16
Mosler Saf~   Company~~lu~Enginee~ing   Change   Propo~al   Shoul~No~
Be Approved

Period First Reported:   April 1, 1981 - September 30, 1981

Our review of a Value Engineering Change Proposal (VECP) de-
termined that acceptance of this VECP would result in unnecessary
expenditures of over $300,000. Accordingly, we recommended that:
(1) the VECP not be approved, and (2) the contractor be paid only
a fair and reasonable amount for the system.

The Commissioner of the Public Buildings Service advised us that
GSA's General Counsel had determined that there was no legal basis
for not approving the VECP. This determination removed the basis
for our recommendations. However, Agency tracking officials have
deemed it appropriate to continue tracking the negotiations to
ensure that an equitable settlement is reached with the contractor.

Audit of Claim for Increased Construction Costs

Period First Reported:   October 1, 1981 - March 31, 1982

On July 31, 1979, a contracting officer denied a $565,000 claim
for increased construction costs.  The contractor, after his
claim was denied, filed suit in the Court of Claims.  The Court
transferred the claim to the GSA Board of Contract Appeals. At the
Board's request, we performed an audit of the claim and questioned
over $461,000 in costs. As of September 30, 1982, the Board had
not rendered any decisions on the final disposition of the claim.
Potential Recoveries on Laboratory and Hospital Furniture and
Equipment
Period First Reported:   October 1, 1981 - March 31, 1982

This price reduction/defective pricing audit of a multiple award
contract recommended that the Government receive a refund of
$1.3 million. A demand letter was sent to the contractor on
March 12, 1982. A settlement has been negotiated for $600,000
and the GSA is awaiting receipt of the check from the attorneys
for the firm.  Agency tracking officials are carrying this audit
as an open item until the check is received.

Better Utilization of Excess Personal   Prope~

Period First Reported:   October 1, 1981 - March 31, 1982

Our audit disclosed that excess personal property in one region,
valued at approximately $1 billion annually, could be redistributed
among Federal agencies for additional use. We made 13 recom-
mendations aimed at improving utilization; eight of these recom-
mendations have been implemented.




                              17
The Office of Inspector General considers the remaining five
recommendations resolved and is working with management to
develop an implementation schedule.

Contract for New Federal Office Building   I~properly Ad~~~ste~ed

Period First Reported:   October 1, 1981 - March 31, 1982

Our review of the construction of the new Federal Office Building
and Courthouse in Hato Rey, Puerto Rico found that over $580,000
in unnecessary costs were incurred and additional funds were wasted
due to improper administration of the construction contract. Ac-
cordingly, we made four recommendations, including one to initiate
claim actions to recover overpayments from the contractor.

Management has acted upon and/or implemented all of these recom-
mendations. The region forwarded the claim to the General Ac-
counting Office on April 3, 1982. Agency tracking officials are
monitoring progress in recovering the overpayments.

Jnadequate and Improper Financial Management of the Construction
Services Fund

Period First Reported:   October 1, 1981 - March 31, 1982

Our review of the Construction Services Fund (CSF) disclosed se-
rious improprieties relative to its financial management.  The
audit report contained nine recommendations. Corrective action
has been completed on eight of these recommendations.

The remaining recommendation urged that an indepth reconciliation
be performed in order to determine the true fund status of all
accounts, adjustments be made based upon the reconciliation, and
a report be made to the President, Congress and OMB. GSA reported
to Congress on May 13, 1982 that the fund operated under assumptions
which violated the Anti-Deficiency Act.  Management is in the pro-
cess of reconciling the accounts and a final report will be issued
to Congress in December 1982 if actual statutory violations occurred.
According to Agency tracking officials, the issuance of this report
will complete action on all of the recommendations.

Regional Management of the Public Buildings Service/Information
System Needs Improvement

Period First Reported:   October 1, 1981 - March 31, 1982

An internal audit of the Public Buildings Service/Information
System found that the system's usefulness and reliability had
been reduced. We made 10 recommendations directed at correcting
the problems contributing to this condition. Corrective action
has been completed on six of the recommendations.




                              18
Implementation of the remaining four recommendations is pro-
gressing. Two recommendations addressing the elimination of un-
necessary system reports will be acted upon in January 1983 when
the analysis of system usage is completed. The remaining recom-
mendations which concern staffing issues have been affected by a
regional reorganization. For this reason, final staffing plans
and training remain uncompleted. Agency tracking officials are
monitoring regional actions.

Government Real Property Used for Private Use

Period First Reported:   April 1, 1981 - September 30, 1981

This audit revealed that Government real property had been im-
properly used by a neighboring property owner to expand his
parking lot facility.  Accordingly, we recommended that the
land be recovered and that a claim be initiated to recover the
value of the profits generated through this unauthorized use.

As a result of a second followup audit, the OIG has concluded
that management's actions meet the intent of our recommendations.
Agency tracking officials are monitoring the reimbursement
actions until successfully completed.




                              19
III.        MATTERS REFERRED FOR CRIMINAL, CIVIL AND/OR
            ADMINIST:RA':fIVEACT-ION"ANo-fNSFE""<:rfOR GENERAL SUBPOENAS

As required by Section 5(a)(4) of the Inspector General Act
of 1978, this section summarizes those matters referred to
prosecutive authorities and the resulting prosecutions and
convictions which occurred during the period.  In addition,
civil, administrative, and subpoena actions are provided.

Due to delays in the notification process, some of the data
in this section includes activities which occurred during
the last reporting period but are reported here for the
firs t time.

       A.     Criminal Referrals

Our Office referred 38 cases involving 51 subjects to the
Department of Justice or other authorities for prosecutive
consideration during this reporting period. Of those re-
ferrals, prosecution was declined on 23 cases (24 subjects).
The Department of Justice also declined prosecution on 20
cases (41 subjects) which were referred during earlier re-
porting periods. The primary reasons for these declinations
were: (1) although a technical violation may have existed,
there was a lack of harm to the Government or the publici
(2) there was nominal dollar loss to the Government; (3) the
matter lacked jury appeal; and/or (4) corrective action could
best be initiated through other means.

       B.     Investigative Referrals

Our Office made 10 investigative referrals to other Federal
and State agencies for further investigation or other appro-
priate action.

       C.     Criminal Prosecutions

Figure I illustrates by type of subject the number of in-
dictments, convictions, dismissals/acquittals, sentences,
and sentences pending during this reporting period.  There
is no direct correlation between the number of indictments
and the number of convictions since some of the convictions
resulted from indictments returned in previous reporting
periods.




                                      20
                      SUBJECTS IN THE CRIMINAL JUSTICE SYSTEM
                     APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982

             Indictments/   Convictions       Dismissals/               Sentences
             Informations   Pleas/Trials      ~cq~i ttal~   Sentences    Pending

 GSA
 Employees       8             5     1             1            4           3

 Firms           0             0     0             0            0           0

 Officers,
 Employees,
 Principals,
 and Agents
 of Firms        4             5    1              1            3           3

 Other
 Individuals     4            6      0             0            3           3

 Other
 Government
 Agency
 Employees      0              0    0              0            0          0

 TOTAL         16            16      2             2          10           9

L_'_._______---.-------.--
                                   Figure 1

     D.   Investigation Recoveries

 As a direct result of investigative action, the OIG recovered
 $2,242.77. This amount represents a management commitment to
 recover monies.

     E.   Civil Referrals

 We referred 7 cases (15 subjects) to the Civil Division of the
 Department of Justice or the appropriate U.S. Attorney for civil
 action.  Settlements have been reached in 2 of these cases (4 sub-
 jects); the remaining cases are under active review by the Depart-
 ment of Justice. The total amount of potential recoveries for
 these 5 civil referrals (11 subjects) is almost $1 million.

 Regarding referrals from prior periods,S cases (6 subjects)
 were declined and a civil settlement was reached in 1 case




                                   21
    involving 3 subjects.  For the 34 cases, representing 74 subjects,
    pending at the close of the period, the total amount of potential
    recoveries is approximately $14.9 million.

                                                                        ---------
                    ACTION STATUS OF CIVIL REFERRALS BY SUBJECT
                     APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982

  Referrals                                        Act ions Taken          Referrals
Pending Action           Referrals                4/1/82-9/30/82        Pending Action
    4/1/82             4/1/82-9/30/82        Settlements Declinations      9/30/82

     76                     15                    7           10              74



                                        Figure 2

          F.   Criminal and Civil Recoveries

   Fines and penalties totaling $16,600 and restitutions totaling
   $1,607 were secured in 7 criminal cases (7 subjects), and a
   settlement totaling $15,017 was reached in 1 criminal case
   (1 subject). Civilly, settlements totaling $145,967 in 3 cases
   (7 subjects), and restitutions totaling $22,629 in 10 cases
   (10 subjects) were accomplished.  Figure 3 presents overall
   totals by category for both criminal and civil actions.



                       CIVIL AND CRIMINAL RECOVERIES ORDERED
                     APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982


                                        Criminal            Civil          Total

 Fines and Penalties                    $16,600                          $ 16,600

 Settlements                             15,017            $145,967       160,984

 Res ti tu t ions                        1,607               22,629        24,236

                                        $33,224            $168,596      $201,820



                                    Figure 3




                                        22
     G.     Administrative Referrals Involving GSA            Employee~an~
            Programs

 As illustrated in Figure 4, 86 cases involving 91 subjects
 were referred to agency officials for administrative action.
 In addition, we referred 95 cases concerning 97 subjects to
 agency officials for informational purposes. We also received
 and evaluated 241 complaints or allegations involving GSA em-
 ployees and programs which did not warrant formal investigation
 because they were not specific, did not justify investigative
 action, or could best be resolved by management inquiry.



                     ACTIONS TAKEN ON ADMINISTRATIVE
                      REFERRALS TO AGENCY OFFICIALS*
                 APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982

                  Pending         Referrals              Administrative      Pending
                  4/1/82        During Period           Action Completed     9/30/82

 Cases              83                 86                      114              55

 Subjects           85                 91                      116              60


 * Does not include contractor suspension/debarment recommendations.
_L __~                                                           -~--~--.---



                                     Figure 4

 Figure 5 details the management actions taken during the period as
 a result of our administrative referrals involving GSA employees.



                          PERSONNEL ACTIONS RESULTING
                         FROM ADMINISTRATIVE REFERRALS



     Reprimands*            Suspensions         Demotions        Terminations

            29                  15                  1                 23


 *Includes warnings and counseling.


                                     Figure 5




                                          23
     H.   Contra~ Suspensi~and                 Debarment       Refe~rals

 The Office of Inspector General has continued its efforts to
 make the suspension/debarment process a more effective and
 more readily used means of protecting the interests of the
 Government in connection with GSA's multi-billion dollar pro-
 curement activities.

 We referred to agency officials 9 cases recommending 20 subjects
 for debarment as illustrated in Figure 6. During this period,
 5 suspensions were imposed and 14 debarments were effected, in-
 cluding suspension action taken on 3 subje~ts not originally
 referred.  Recommendations on 6 suspensions and 9 debarments
 were disapproved.




               CONTRACTOR SUSPENSION AND DEBARMENT ACTIVITIES
                 APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982


                                                  CASES
                                                  ---
                 Pending Action      Referrals          Actions            Pending Action
                     4/1/82          Reported          Completed           _ _9/30/82


Suspensions            8                   0                     3                5

Debarments            12                   9                    11               10


                                                SUBJECTS
                                                           -
Suspens ions          33                   0                    11               25

Debarments            31                  20                    23               28




                                  Figure 6

     I.   Significant Criminal Cases

As reported in Section III A, 38 cases involving 51 subjects
were referred for prosecution during this reporting period.
The following paragraphs summarize selected referrals made
for prosecution during this period as well as actions taken
on referrals made in prior periods.


                                     24
Purchase   of Government Surplus Vehicles With Worthless Check
-,--                                -"-~------.

On April 29, 1982, an individual was sentenced in u.s. District
Court, Northern District of Georgia, to serve eight years confine-
ment for theft of Government property. The individual purchased
six vehicles from the General Services Administration at an
auction in Chamblee, Georgia, in July 1981, and paid for the
vehicles with a check that he knew to be worthless. The cars
were then transported to other states and sold to unsuspecting
individuals and dealers.

Redelivery of Rejected Wiping Cloths

A contract for furnishing wiping cloths to GSA included pro-
visions prohibiting the redelivery of goods previously rejected
by GSA. Joint audit/investigative action determined that a
total of 797 bales of wiping cloths, valued at $41,942.50, had
previously been rejected by GSA as defective and returned; yet
they were knowingly redelivered intact by the firm.  The firm
and its officers were recommended for debarment after the U.S.
Attorney's Office, Philadelphia, Pennsylvania, had declined
criminal prosecution in the matter.  The firm was debarred for
three years terminating on May 26, 1985.  In addition, the firm's
president was also debarred from further contracting with GSA for
a concurrent period of time.

Extortion on GSA Contract

On April 20, 1982, a GSA contract cleaning supervisor received
a one year sentence which included 30 days to be served in
prison and the remainder was suspended; two years probation;
and $3,600 restitution to his victims at a rate of $150 per
month following his release. The subject had previously pled
guilty to a one-count indictment charging him with violating
18 USC 1951 (interference with commerce by threats or violence)
for extorting money from employees under his supervision by
threatening them with loss of their jobs. The indictment was
the result of a joint investigation by the GSA Boston Field
Office and the FBI.

Vehicle Rental Charged to the Government by Former GSA Employee

A former employee of the Federal Emergency Management Agency (FEMA)
was indicted on nine counts of 18 USC 287 (false, fictitious or
fraudulent claims) for causing false claims to be submitted to
GSA. The subject represented himself as a FEMA employee to rent
$14,435 worth of vehicles from a rental car firm and then caused
the billing to be sent to GSA.  After being indicted, he fled
and a warrant has been issued for his arrest.




                               25
~mbezzlement   from Imprest Fund

A GSA Field Office Manager, with 29 years of service with GSA,
abruptly retired after being advised that our investigation
showed that he had inflated imprest vouchers in the amount
of $2,221. Subsequent to his retirement, he pled guilty to
a charge of conversion of Government property to personal use.
He was fined $1,000, placed on two years probation, and ordered
to perform 200 hours of community service.

Fraudulent Submission of an Invoice

On August 11, 1982, a former official of an Indiana firm which
held a GSA contract to provide electrical transformers was
convicted in u.s. District Court, Kansas City, of defrauding
GSA of more than $23,000 by submitting an invoice to GSA for
transformers that were never shipped. On September 14, 1982,
this individual was sentenced to three years imprisonment
and was fined $10,000.

    J.   Subpoenas

The use of subpoenas has been an effective tool for obtaining
information necessary for the proper completion of audits,
inspections, and investigations. We issued five subpoenas
during this reporting period.




                               26
IV.   UNREASONABLE
            .      REFUSAL --OF INFORMATION OR ASSISTANCE

The Office has encountered no instances of unreasonable
refusal of information or assistance during the reporting
period.




                                27
V.   REVIEW OF LEGISLATION AND REGULATIONS

As required by Section 4(a)(2) of the Inspector General Act
of 1978, we reviewed numerous legislative and regulatory
initiatives, including 56 legislative matters. Among the
more important areas in which we have provided comments are
the following:

-- Expressed general support for the intent of H.R. 6266,
the Waste and Abuse Information Collection Act. However, we
expressed our belief that it created an inappropriate mechanism
for policing GSA contractors who take reprisal actions against
their "whistleblower" employees. We also opposed the agency
head cash award provision as being vulnerable to abuse, in
contrast to a similar provision in the new Inspector General
Cash Award Program.

-- Supported Draft Bill 50, the Program   Fraud Civil Penalties
Act of 1981. This proposal provides an    administrative mechanism
for the recovery of civil penalties and   assessments for false
claims and statements involving Federal   grants, contracts and
programs.

-- Supported S. 2451, the Public Buildings Authorization Act
of 1982. This is the first separate annual public buildings
authorization bill.  It conforms closely to S. 533, the proposed
Public Buildings Act, which would provide a permanent author-
ization for many significant program changes.

-- Supported H.R. 1526, the Federal Managers' Financial Integrity
Act of 1982, which requires the head of each executive agency to
prepare an annual statement certifying that his or her agency's
system of internal accounting and administrative controls fully
complies with the standards prescribed by the Comptroller General.

-- Commented on deficiencies in H.R. 6894, the National Archives
and Records Administration Act of 1982. The bill made no pro-
vision for either the continuation of an Inspector General
function within the proposed new agency, or for the establishment
of a separate Office of Inspector General for the proposed agency_

   Generally supported the proposed amendments to the Inspector
General Act of 1978, Legislative Committee No. 97-12.  Supported
amendments to permit OIG personnel to administer oaths and
affirmations; to establish specific conditions for tenure or
removal of Inspectors General; and to authorize separate ap-
propriations for the Offices of Inspector General.




                              28
VI.   REPORTS ISSUED BY THE OFFICE OF INSPECTOR GENERAL
      FOR THE PERIOD APRIL 1, 1982 TO SEPTEMBER 30, 19~~

Pursuant to Section 5(a)(6) of the Inspector General Act of
1978, Appendices I (pages 47 through 80) and II (pages 81 to
84) list each audit and inspection report issued by the OIG
during the reporting period.




                              29
                    Part 2

  OFFICE OF INSPECTOR GENERAL ACTIVITIES FOR
THE PERIOD APRIL 1, 1982 TO SEPTEMBER 30, 1982
I.   OFFICE OF INSPECTOR GENERAL ORGANIZATION, STAFFING, BUDGET
     ANDSPE'CfAL"MXill:\GEMENT INITIATIVES -

     A.   Organization and Staffing

The organizational structure of the Office of Inspector General
as presented in the May 1, 1982 Report to Congress remains un-
changed.  The structure provides for two major operational units,
the Office of Audits and the Office of Investigations; a central-
ized planning and evaluation staff, the Office of Policy, Plans
and Evaluationi an OIG-oriented legal staff, Office of Counsel to
the Inspector General; and, a centralized management and data sys-
tems support staff, the Office of Executive Director.

The Fiscal Year 1982 Budget envisioned a workforce of 511 ful1-
time equivalent employees, and actual staffing as of October 1,
1981 totaled 518.  However, resources available under final Fiscal
Year 1982 funding authority fell far short of requirements.   By
year's end, on-board staffing had been reduced through attrition
to 419 employees.  This reduction of 99 employees or 19 percent
was obviously highly significant in terms of magnitude.  Also
significant was the fact that most of the employees who left
the organization were fully functioning journeymen investigators,
auditors, or inspectors who had considerable knowledge of the
intrastructure of GSA's programs and operations. Replacement of
this loss of expertise in the immediate future will be extremely
difficult.

Figure 1 compares on-board staffing levels at the close of the
reporting period to our approved staffing level.

                   OFFICE OF INSPECTOR GENERAL
                      DISTRIBUTION OF STAFF

                              Approved FY 82
OIG Organization                 Staffing             On Board 9/30/82

Office of Inspector
  General                                6                        6

Office of Counsel
  to the Inspector General               9                        8

Office of Executive                     26                       17
  Director

Office of Policy, Plans and
  Evaluation                            22                       20

Office of Audits                       317                   268

Office of Investigations               131                   100

                      TOTAL            511                   419

                                Figure 1

                                  30
    B.   Travel Funds

Our authorized Fiscal Year 1982 travel budget was $1.12 million.
Due to severe budgetary constraints, actual obligations were
restricted to $400,000 for the entire fiscal year. This re-
striction, which extended to all OIG operations, was imposed
to avoid the necessity of reductions in force or extended fur-
loughs.

During the reporting period, $148,000 in travel funds were ob-
ligated, as opposed to $515,000 in travel expenditures for the
equivalent period in Fiscal Year 1981.  The reduced Fiscal Year
1982 level of funding for operational travel imposed a severe
handicap on OIG activities: investigative work and internal au-
dit jobs requiring travel were deferred; of the scheduled ex-
ternal audits requiring travel, only the highest priority ones
were undertaken~ and supervisory visits were essentially elim-
inated during the entire period.
    C.   Special Management Initiatives

Formulation of OIG Strategy

During these six months we placed substantial emphasis on the
development of strategy statements for the OIG and each operating
component.  These statements are aimed at focusing and
unifying our efforts in carrying out the ~IG's statutory respon-
sibilities. They provide a clear definition of the GSA OIG, in
terms of its primary mission, its clients, its destined products,
its intended results, and the qualities necessary to support the
strategy. We believe that these strategies will foster signif-
icantly more effective OIG operations through greater under-
standing of and support for the role and function of the Inspector
General within GSA.

Improved OIG Management Operations

Considerable effort has been directed to consolidating and
centralizing internal support functions to achieve greater
economies and efficiencies in our own operations. Although
needs were identified prior to the reporting period, most of
the front-end work necessary to implement these changes
could not be achieved until the third and fourth quarters of
Fiscal Year 1982. Accomplishments to date include:

         centralized mail management;

         centralized records management;

         centralized administrative staff support;

         coordinated ADP development efforts; and

         consolidated word processing.


                               31
As a result, the OIG has experienced more efficient control,
timeliness and responsiveness in its operations.

Inspector General Information System (IGIS)

A major internal management achievement during the period was
the completion of the system design and programming of the
Inspector General Information System. Although faced with
reduced staffing and resource availability, major components
of the fully automated, interactive data base management
system were finalized and installed prior to the projected
deadline date of September 30, 1982. As constituted, the
IGIS provides an inventory of auditable entities within GSA,
ranked by their priority for review; an audit planning mech-
anism that is tied to the inventory; and a system for tracking
the progress of investigative and audit assignments.  Future
system modules will provide for categorizing and compiling
findings in audit and investigative reports, and tracking the
status of audit recommendations to the point of recommendation
resolution.

Improving Operations Through Integrity Awareness Traininq

Efforts are continuing at GSA to make managers and supervisors
more aware of their personal responsibilities to combat program
inefficiencies, report suspected fraud, and educate employees
regarding the GSA Standards of Conduct.  Based on reports during
this six month period, more than 1,000 managers, supervisors and
employees in eight regions and Central Office received such
training from the OIG.  Integrity awareness training programs
supplement separate briefings given to GSA employees working
in areas with identified vulnerabilities to waste and fraud.

OIG Participation in Implementation of OMB Circular No. A-76

An evaluation was conducted of the Public Buildings Service (PBS)
A-76 cost model to determine if it was prepared in accordance
with Supplement No. 1 to Office of Management and Budget (OMB)
Circular A-76, "Policies for Acquiring Commercial or Industrial
Products and Services Needed by the Government." The Circular
establishes policies for determining whether commercial or in-
dustrial products and services needed by the Government should
be contracted through private businesses or performed by Government
personnel.  It also provides guidance for developing cost for in-
house performance and guidance for performing a comparative price
analysis of contract versus in-house costs. Each agency head has
the responsibility for ensuring that its provisions are followed.

The results of our review disclosed areas that could be improved.
We recommended that the instructions included in the cost model be
clarified to assure that all cost figures rely upon the statement
of work contained in the solicitations furnished to prospective
contractors.



                              32
The close coordination and team work with PBS personnel and
other regional segments of GSA resulted in timely revision of
the model. The work performed on the A-76 cost model is expected
to benefit the Federal Government by saving millions of dollars.

Advisory Reviews of Leases Prior to Award

On December 14, 1981, the Administrator of GSA issued a letter to
the Commissioner of PBS which required that certain changes be made
to the PBS Leasing Program. Among other things, the letter stated
that all leases over $200,000 would be referred to the regional
Office of Inspector General for review.

In accordance with the Administrator's letter, the Inspector
General developed a program to perform these advisory reviews.
These reviews are designed to:   (1) identify major deficiencies
in the leasing process; (2) determine that all major documentation
was prepared; and (3) identify any irregular events affecting the
lease award. Our findings do not constitute approvals to make the
lease awards or waivers on performing future audits of such leasing
actions. They are reported to the contracting officer who is solely
responsible for making the final decision on the lease award.

The following schedule shows the program results for this period:

                Categor~                         Number

   Lease proposals submitted for review            75
   Lease proposals reviewed                        43

   Reviews with no or minor deficiencies           37

   Reviews with major deficiencies                  6

Since these reviews are advisory in nature, the decision to take
corrective action resides solely with the contracting officer.   In
most instances, the contracting officer has corrected the iden-
tified deficiencies prior to the lease award. Yet, corrective
actions were not taken in all cases. Therefore, these leases will
be reviewed in our periodic internal postaward audits of the leasing
program.

Collocation and Consolidation of Field Offices

In the last semiannual report, we advised that the OIG had under-
taken a major effort to collocate and consolidate offices both
at headquarters and at regional locations. During the first
six months of Fiscal Year 1982, we accomplished a 22 percent
reduction in general office space at headquarters.  During
these six months, our focus shifted to the regional offices.
To date, all but four OIG field offices have been collocated




                              33
and consolidated.  The net effect of these actions has been:
overall reduction of square footage of office space assigned;
increased and more efficient utilization of space; and more
effective clerical and administrative operations. Average
square footage has been reduced at field locations from 176 to
135 square feet per employee. The remaining four locations
New York, Chicago, Philadelphia and field operations in the
Washington, D.C. metropolitan area -- are scheduled to be com-
pleted during the next reporting period.

Other Initiatives

In addition to the efforts previously discussed, the OIG also
contributed to the development of an improved Price Reduction
Clause for Multiple Award Schedule Contracts which we believe
will have a tremendous positive impact on agency procurements.
We also assisted management in the development of a draft audit
program for the use of auditors when assessing the effectiveness
of the Personal Property Donation Program at the state level.




                             34
II.   OPERATIONS AND STATISTICS

      A.   Office of Audits

The Office of Audits provides internal audit, contract audit,
and inspections services to the General Services Administration.

Contract audits provide contracting officials within GSA, who
procure goods or services from the private sector, professional
advice on accounting and financial matters relative to the
negotiation, award, administration, repricing and settlement
of contracts.

Internal audits deal with all facets of GSA operations, and
are designed to determine whether the financial statements
covering various elements fairly present the results of oper-
ation, whether the operations are being performed in an eco-
nomical and efficient manner, and whether the programs assigned
to GSA are being accomplished.

The inspection services provide detailed technical evaluations
of all aspects of GSA operations including evaluations of the
leasing program and lease award procedures, various aspects of
the buildings operations program, elements of the GSA construc-
tion program, and the effectiveness and efficiency of pro-
curements in the Federal supply program including contracting
procedures and contract administration.

Contract Audit Accomplishments. During the current reporting
period, the Office of Audits issued 221 contract audit reports
resulting in recommended cost recoveries and cost avoidance of
$64.7 million.   Figure 1 shows a breakdown of these costs by
type of audit, while Figure 2 summarizes those contract audits
settled during the current reporting period. As of September 30,
1982, there were 2 unresolved postaward contract audit reports,
involving $32,373.

Of particular interest during this period was the tentative set-
tlement of $7,075,000, inclusive of interest, reached on a delay
claim relative to the construction of the Richard B. Russell
Federal Building in Atlanta, Georgia. The contractor's original
claim asserted that Government interference caused a delay of over
14 months and resulted in increased construction costs of $22 mil-
lion. This claim represented the largest construction claim ever
submitted by a contractor against GSA.

The Office of Inspector General has been involved in the review
of this claim since June 1981, when we issued a summary report
which questioned $19 million of the proposed $22 million claim
(exclusive of interest).  Later, after the contractor decided to
have the claim heard by the U.S. Court of Claims, the settlement
responsibility shifted to the Department of Justice. The U.S.
Attorney, working with GSA's General Counsel, requested our as-
sistance in developing the case for the u.S. Court of Claims.


                                  35
                             SUMMARY OF EXTEmAL AUDITS
                      APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982



                        Nt.mt>er             Total          Recanmended                        Recanmended
                      of Reports            D:>llars           Cost                               Cost
AUDITS BY GSA-IG        Issued             Reviewed          Avoidance                          Recove.EY..-_
                                          -----
Architect-Engineer         19      $     6,296,299     $      474,047                  $
  Proposals
Claims                     18           10,627,144          7,961,277                             4,011

Initial Pricings           41           51,486,408         11,949,931

Chan::1e Orde rs            7            1,537,149          1,037,227

Lease Preawards             2              373,564             51,132

Lease Escalations          42           20,583,190          9,892,696

Terminations                4               86,371             50,627

Multiple Award-            26          276,605,878         10,295,392
 Preaward
Multiple Award-            37          642,156,080                                       20,649,757
 Postaward
Cos t Type Contract         2            2,800,499                                                7,239

Others                     18           52,299,336                                         1,506,143


Subtotal-GSA-IG           216      $1,064,851,918      $ 41,712,329                $ 22,197,279
Audits
AUDITS BY OI'HER AGENCIES

Claims                      1      $      176,675      $                           $

Initial Pricings            4            2,678,792           802,995               ----~-~



Subtotal Audits
by Others                   5            2,855,467           802,995

TOrAL    AUDITS           221      $1,067,707,385      $ 42,515,324                $ 22,197,279
TOrAL   COSTS                                                      $64,712,603
R.ECX)MMENDED                                                             ........=:::a::..~



(Avoidance and Recovery)
                                         Figure 1
                                           36
                        SUMMARY OF TOTAL COSTS SUSTAINED ON
                     CONTRACT AUDITS SETTLED lJJRING THE PERIOD
                     APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982



                                   AVOIDANCE                        RECOVERY
                            Recanmended      Costs         Recanmended       Costs
REPORI' ISSUE DATE             Costs      Sustained           Costs        Sustained

FY 1977 GSA Audits      $                 $            $     867,741      $763,631

FY 1978 GSA Audits                                            72,360         2,903

FY 1979 GSA Audits           329,189       326,352
 Audits by
 Other Agenc ies              13,868          13,868

FY 1980 GSA Audits      3,056,488        2,192,845           480,259       156,810
 Audits by
 Other Agencies              613,115       359,207

FY 1981 GSA Audits     10,663,711        6,617,963         1,286,127       225,007
 Audits by
 Other Agencies              639,125       639,125

FY 1982 GSA Audits     12,692,524        7,506,020           207,119       211,652
 Audits by
 Other Agencies              583,535          70,000

Total-GSA Audits      $26,741,912      $16,643,180      $2,913,606      $1,360,003

Total-Audits By
Other Agencies        $ 1,849,643      $ 1,082,200


TOTAL                 $28,591,555      $17,725,380      $2,913,606      $1,360,003

TOTAL COSTS
SUSTAINED
(AVOIDANCE
   AND                                                 $19,085,383
RECOVERY)



                                        Figure 2




                                           37
The settlement will become final with the concurrence of the
U.S. Attorney General's Office. Cost savings to the U.S.
taxpayers based on our audit and negotiations will be in excess
of $14 million.

Internal Audit Accomplishments. During the current reporting
period, the Inspector General issued 112 internal audit reports
involving recommended cost avoidance of over $6.8 million. We also
recommended cost recoveries of over $2.9 million during the period.
Figure 3 summarizes these audits by organizational element and in-
dicates the amounts of cost avoidance and cost recovery recommended.

Internal audits resolved during the reporting period resulted in
total costs avoided of over $9 million and a commitment by man-
agement to seek the recovery of over $2.25 million.

Inspection Accomplishments. During the current reporting period,
the Inspector General issued 49 inspect ion reports covering con-
tracts with a value of over $136 million.   Total recommended cost
avoidance resulting from these inspections amounted to $14.9
million. Total recommended cost recoveries amounted to $629,000.
Figure 4 shows the reports issued and results by program area.

Inspection reports resolved during the period resulted in total
costs avoided of almost $15 million and a management commitment
to seek the recovery of $363,426.

    B.     Office of Investigations

Figure 5 illustrates the types and numbers of investigative cases
which were opened and closed from April 1, 1982 through
September 30, 1982.  In addition to this investigative case work-
load, we received and evaluated 241 complaints/allegations from
sources other than the hot1ine involving GSA employees and pro-
grams which, based upon analysis, did not warrant conducting
a formal investigation.  These determinations were made based
on the fact that the allegations were either not specific, did
not warrant investigative action, or could best be resolved by
management.

Hotline:    Calls, Letters, GAO and Other Agency Referrals

During the reporting period, we received 867 Hotline calls and
letters, 39 referrals from the General Accounting Office and
16 referrals from other agencies. These complaints were eval-
uated and, where warranted, appropriately referred to GSA pro-
gram officials, other Federal agencies or were retained by the
OIG for audit, inspection or investigative action.   Figure 6
shows a breakdown of the disposition of these complaints.

Memorandum of Understanding With      ~he   FBI
On August 19, 1982, the Inspector General and the Assistant
Director, Criminal Investigative Division, Federal Bureau of
Investigation (FBI) met at FBI Headquarters to sign a Memorandum

                                 38
                                     SUMMARY OF
                               INl'EmAL AUDIT REPORTS
                        APRIL 1, 1982 TO SEPI'EMBER 30 f 1982
                            No. of   Percentage    Recantn9nded      Recanrnended
                            Audits    of Total        Cost              Cost
Program      Ar~           Performed   Audits       Avoidance        _ Recove;y

Office of Plans,
PrOJr ams, and
Financial Management           18        16.1      $ 6,490,504       $   5,749
Automated Data and
Telecommunications
Service                         9          8.0         292 r OOO
Federal Property
Resources Service              11         9.8
Federal Supply Service          8         7.1
National Archives
and Records Service             2         1.8

TransfQrtation and
Public Utilities Service        3          2.7                       2,926,110
Public Buildings Service       57        50.9           44,770
GSA Board of Contract
Appeals                         1         0.9
Office of Oversight             2         1.8
Office of organization
and Personnel                   1         0.9

'I'O':t1US                    112       100.0      $ 6,827,274     $ 2,931,859
                                                                                    1-
                                     Figure 3




                                          39
         ---- -   --~.-   --------------.---.-------    ~-- -----~----.        -------- _·_·_-----------------------1
                                          INSPECTION AND TECHNICAL SERVICES DIVISION                                           .
                                        REPORTS ISSUED, CONTRACTS INSPECTED AND RESULTS
                                         ATTAINED DURING THE CURRENT REPORTING PERIOD


                                Number of       Number of      Total Dollar             Recommended              Recommended
                                 Reports        Contracts        Value of                  Cost                     Cost
        .?rogram Areas           Issued         I~spe_cteC!      Contracts               Avoidance                Recoveries
                                                               ----------               ---------                ----~-




        Leasing                    13              22         $ 93,824,862              $ 14,942,400**            $ 154,600

        New
        Cons truct ion              1               1           16,500,000                                            7,600

        Repairs and
        Alterations                23              26           10,536,060                        15,000            172,938

        Buildings
        Management
.J::-   Field Offices               2             268                   514,000                                         650
0

         FSS*                       7              19           15,576,314                                          293,190

        TPUS*                       1               0                      0

        ADTS                        1               0           -
                                                                           0
                                                                    ~--------~---~~--   ~ .. -...-.....---~---




                                   49             336         $136 1951,236             $ 14,957,400              $ 628,978


         *These services have been abolished and their function has been transferred to the
          Office of Personal Property.

        **$7.5 million of this amount is related to Report No. S-PBS-L-05-8l which questioned the
          necessity for this facility and recommended that GSA consider terminating the lease
          contract. As a result of a continuing evaluation, the region has revised its initial
          position and has taken action to terminate the lease for default.



                                                              Figure 4
                INVESTIGATIVE WORKLOAD ACTIVITY
           APRIL 1, 1982 THROUGH SEPTEMBER 30, 1982
                                                                        Cases
                                                                      Remaining
                       Cases Open*        Cases         Cases           Open
Case Category            4/1/82           ,9pened       Closed         9/30/~

White Collar
Crime (Fraud,
Bribery,
Embezzlement,
and False
Claims)                   297              105           132             270

Other Crimes in
GSA-Occupied
Space                      83               89               59          113

Contractor
Suspension/Debarment       51               13               21              43

Employee Misconduct        66               84               67              83

Proactive
Inves tiga tion            16                1               14               3

Other                      27               74               52              49

TOTAL                     540              366           345             561

*    Figures rela ting to cases open at the close of our last
     reporting period have been adjusted among case categories.


                                Figure 5



                 DISPOSITION OF HOTLINE CALLS, LETTERS,
                     GAO AND OTHER AGENCY REFERRALS
                  APRIL 1, 1982 TO SEPTEMBER 30, 1982

    Audits/Inspections/          GSA Program          Other        No Further
      Investigations              Officials         .?\gencies    Action/Closed

           III                       96                 59            6 56

                          ----------------------------------------------~
                                Figure 6




                                    41
of Understanding.  This agreement establishes policy for the FBI
and the Office of Inspector General, GSA regarding referrals and
investigations of criminal matters and other areas of mutual in-
terest.

    C.   Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General provides
independent legal counsel to the Inspector General, the
Deputy Inspector General, and other officials of the Office
of Inspector General.  The Office provides technical legal
assistance to the Office of Investigations in connection
with criminal investigative matters and to the Office of
Audits with respect to the full range of issues relating to
Federal procurement law and GSA operations.  Counsel personnel
also provide assistance to the U.S. Attorney offices, the
Department of Justice, and GSA counsel in preparing and
conducting civil and administrative proceedings, and in re-
viewing and recommending contractor suspension and debarment
actions.

The Office is also responsible for preparing and issuing
subpoenas for information, documents, and records necessary
in the performance of investigations, and for developing and
reviewing legislative and regulatory initiatives affecting the
GSA.  Some of the more significant activities handled by Counsel
during the reporting period are detailed below.

Suspension and Debarment Activities: OFPP Policy Letter

During this reporting period, the Office of Federal Procurement
Policy (OFPP) promulgated a policy letter on suspension and
debarment. This letter established for the first time a
Government-wide sanction of suspension and debarment in the
procurement area. This Office actively participated on the
interagency task force which developed the policy.

In addition, the Office of Counsel to the Inspector General
is the lead organization on a President's Council on Integrity
and Efficiency (PCIE) project to assure prompt and effective
implementation of this policy throughout the Government.

Suspension and Debarment Activities:   PCIE Project on a Consolidated
?yste~

The Counsel to the Inspector General is sharing the leadership
role on another PCIE project which was initiated to determine
both the desirability and feasibility of establishing a con-
solidated Government-wide suspension and debarment system.
Such a system would encompass the full range of Federal activ-
ities, including procurement, grants, cooperative agreements,
loan guarantee programs and other forms of Federal assistance
(excluding statutory entitlement programs).



                              42
Withholding of Lump Sum Payments of Former GSA Employees

The Office of Counsel to the Inspector General has been involved
in the process of formalizing an administrative procedure for
withholding lump sum payments due to former GSA employees who
have incurred potential civil fraud liability to the Government.
A decision on such withholding usually is made after an employee
has terminated employment with the agency following a criminal
indictment or conviction.

Under the new procedure, the Civil Division of the Department of
Justice formally requests that we initiate action to temporarily
withhold the accumulated annual leave and/or pension monies due
the former employee. The OIG requests a withholding determination
from the appropriate agency officials after providing them with
the necessary information upon which to make an independent de-
termination, and instructs them concerning the notice and due
process requirements which must accompany their action. To date,
GSA, at our initiation, has withheld the accumulated annual leave
or pension monies of 34 former employees.

During this period, we sought and obtained a formal legal opinion
from the Department of Justice concerning the use of this ad-
ministrative procedure. We also prepared a formal delegation
of authority from the Administrator to Regional Administrators
and Heads of Staff Offices and Services which clarifies their
responsibilities in this area. These actions will facilitate
the use of this administrative procedure in the future.

    D.   Office of Policy, Plans and Evaluation

As a result of our February 17, 1982 reorganization, the Office
of Policy, Plans and Evaluation came into existence. Since its
inception, it has undertaken the extremely important task of
developing centralized systems to provide for improved OIG
operational performance and better targeting of OIG resources
to agency program areas which are highly vulnerable to waste,
fraud, and mismanagement. As of September 30, 1982, our major
accomplishments included:

-- Development of an Integrated Planning System. As noted pre-
viously, we have developed a computerized inventory of all au-
ditable entities within GSA prioritized in terms of significance,
and an automated audit annual plan which draws upon this inventory
for planning purposes and tracks audit accomplishments against
established milestones.  Refinements are now being made to the
inventory and the first automated plan will be available at the
start of Fiscal Year 1983. The system module designed to collect
and classify all audit findings and recommendations is scheduled
to go on-line within the next several months.




                              43
-- Preliminary Identification of Vulnerable Areas and Systemic
Problems. We analyzed recurring defic[encies~[sclosed in all
OIG aUdit reports and identified vulnerable program areas and
systemic problems within the GSA. This effort, combined with
the input obtained through a special vulnerability survey of
some 180 auditors, investigators and inspectors, has provided
the OIG with a significant foundation for directing its future
efforts. Plans now call for updating this information on a
semiannual basis, and conducting workshops composed of exper-
ienced auditors, investigators, and inspectors to develop
strategies for approaching the specific problem areas that
have been identified.

-- Evaluations of Component Offices.  Plans are being made to
evaluate the component elements of the Office of Inspector General
in relation to established OIG policies and professional standards
in order to maximize their effectiveness.  Efforts to date have
focused on the development of a Management Evaluation System
which provides the Inspector General with detailed information
on audits and investigations; the establishment of a review
guide for conducting individual office evaluations; and the devel-
opment of guidelines for audit critiques.  The next six months
will see full implementation of these evaluation functions.

-- Formulation of Integrated Policy Statements. These statements,
which cover a wide range of professional and-administrative issues,
represent a major accomplishment in the OIG's efforts to establish/
consolidate/refine OIG policy and procedural guidance.  Over the
next eight months, these policy statements will be integrated into
a totally revised OIG Policy and Procedures Manual.

    E.   Interagency Coordination and Efforts Through the
         President's Council on Integrity and Efficiency

During this reporting period, the Office of Inspector General
participated in interagency projects and a special task force on
Government-wide audit resolution; kept other Inspectors General
informed of cost reduction opportunities available through GSA
programs; and provided specialized assistance to several other
OIGs.

Regarding the interagency projects sponsored by the President's
Council on Integrity and Efficiency (PCIE), this Office partic-
ipated in seven projects during this reporting period.  Figure 7
lists each PCIE project and the extent of our participation.

In the Procurement Suspension and Debarment Project, our Office
is the lead agency for overseeing the implementation of Federal
Procurement Policy Letter 82-1, dated July 1, 1982, concerning
the new Government-wide suspension and debarment information
system. The Project Committee is currently developing agency
regu'lations, training methods, and collection and reporting
procedures. The ultimate goal of this Committee is the timely



                               44
and uniform implementation of new reporting procedures and
improved agency usage of suspension and debarment authority.

In the Uniform Suspension and Debarment Standards Project,
our Office is working with the Inspector General, Department
of Housing and Urban Development, in studying methods for
improving the Government-wide administration and implementation
of Federally imposed suspensions and debarments. The primary
objective of the project is to determine whether a fully
coordinated suspension and debarment system covering the full
range of Federal activities is both desirable and feasible.

During this reporting period, our employees also served on a
special task force organized by the Office of Management and
Budget which studied the process by which audit report recom-
mendations are resolved.  The major areas of emphasis included
developing criteria for measuring the audit resolution process
in Federal agencies, testing the criteria developed, and de-
veloping a review guide for assessing the quality of various
audit resolution processes.

This Office continues to advise other Inspectors General of
administrative cost reduction programs offered by GSA which
can be implemented within their respective agencies.   During
this period, other Inspectors General were made aware of the
cost reduction opportunities available through utilizing re-
habilitated, low-cost furniture offered by the GSA Furniture
Reclamation Center, improved methods for controlling Government
Transportation Requests, and the need to claim unused airline
refunds in a more timely manner.

We have also provided specialized assistance to other Inspectors
General as evidenced by the technical support we gave to the
Inspector General, Department of Education, on an ongoing in-
vestigation of the design and construction of a $12.3 million
high school project. Through this review, we identified es-
timated Government losses of $970,783.   Our findings and recom-
mendations were forwarded to the Inspector General, Department
of Education, on July 2, 1982 for his use in conducting this
investigation.

In an ongoing effort, we are assisting the Inspector General,
Department of Commerce, in an audit of the Patent Review Process.
A member of our staff, an industrial engineer, is analyzing the
multifaceted flow of patent applications in order to recommend
methods and procedures to reduce the length of review periods.
It is anticipated that these reviews can be shortened by either
eliminating, modifying or combining some of the steps in the
process. The onsite work has been completed and we expect to
issue our report in November 1982.




                              45
    PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY
                  INTERAGENCY PROJECTS


Project Name                                    .?articipation

Construction Contract Change Orders                    Full

Procurement Suspensions and Debarments                 Full

Uniform Suspension and Debarment Standards             Full

Government-Wide ADP Systems                           Limited

Computer Matching Project                             Limited
Government-Wide 8{a) Eligibility                      Limited

OMB Circular A-102                                    Limited



                        Figure 7




                              46
APPENDICES
                                                                APPENDIX I
                                                                Page 1 of 34


                          REPORT REGISTER
                          INTERNAL AUDITS

                                                                  Date of
Number                                Title                       Report

9B-12049-5l-04      Construction Contract Change Orders in
                    Region 4                                      04/05/82

9B-202l3-5l-06      Region 6 Procedures for Issuing and
                    Administering Construction Contract
                    Change Orders Need Improvement                04/07/82

3J-00039-04-04-F(l) Short Form Followup - Operational
                    Review of Region 4 Motor Equipment
                    Division                                      04/09/82
5D-10862-09-09     Controls Over Government Transporta-
                   tion Requests and Teleticketing
                   Operations, Region 9                           04/09/82

5D-10274-11-1l-F(1) Fo11owup - Review of Obligations
                    Under Section 1311, Public Law 663,
                    Federal Buildings Fund, Fiscal Year
                    1980                                         04/13/82
5D-00154-06-06-F(2) Fo1lowup - Significant Internal
                    Control Weaknesses Can Cause Losses
                    to the General Supply Fund                   04/14/82

4N-20173-04-04      Federal Informat.ion Cent.ers in Region 4
                    Should Be Consolidated to Improve
                    Efficiency and Reduce Operating Cost         04/14/82

4G-20596-11-11-A   Letter Report - Proposed Award of
                   Succeeding Lease, Crystal Plaza 5,
                   2211 Jefferson Davis Highway,
                   Arlington, Vicginia                           04/14/82

4G-20596-11-ll-B   Letter Report - Proposed Award of
                   Succeeding Lease, Rosslyn Plaza "E",
                   1611 N. Kent Street, Arlington,
                   Virginia                                      04/14/82

4G-20590-05-05-A   Letter Report, Preaward Lease Review,
                   Detroit-Canada Tunnel                         04/15/82

5M-10747-06-06     Greater Emphasis on Monitoring
                   Accomplishments, Training Counselors,
                   and Resolving Complaints Would P·rovide
                   a More Effective Equal Employment
                   Opportunity Program in Region 6               04/16/82

                                 47
                                                             APPENDIX I
                                                             Page 2 of 34
                          REPORT REG ISTER
                          INTERNAL AUDITS

                                                               Date of
Number                                Title                    Report
                                             ---
4G-20589-04-04-b    Letter Report - Pending Lease Award,
                    Lease No. GS-04B-21189                     04/16/82

30-20392-07-07      Letter Report - Self-Service Store
                    Operation, Dallas, Texas                   04/19/82

4G-20589-04-04-A    Letter Report - Pending Lease Award,
                    Lease No. GS-04B-21367                     04/19/82

4G-20594-09-09-A    Letter Report - Preaward Review of
                    A Proposed Lease, Prudential Insurance
                    Company of America, Lease No.
                    GS-09B-5008l in Long Beach, California     04/19/82

4M-00085-04-04-F(1) Followup - Procurement of Competitive
                    Switchboard Equipment                      04/20/82

4I-00621-07-07-F(1) Short Form Followup - Region 7 Energy
                    Utilization Program                        04/20/82


5D-00294-04-04-F(2) Followup - Administrative Approving
                    Officials Need to Perform More
                    Detailed Review of Travel Vouchers         04/20/82

5Y-00530-04-04-F(1) Followup - Cuban Refugee Emergency        04/20/82

4M-I0461-02-02      Telephone Inventory Accounting
                    System, Region 2                          04/20/82

30-006l7-08-08-F(1) Short Form Followup - Region 8 Depot
                    Operations Could Be Improved by
                    Eliminating Hazardous Conditions
                    and Reducing Document Processing
                    Time                                      04/21/82

4G-l0787-05-05     The Acquisition Process Used to
                   Lease Special Purpose Space Should
                   Be Reevaluated and Changed to Avoid
                   Cos tly Problems                           04/22/82

5D-00460-08-08-F(1) Short Form Followup - Improvement
                    Needed in Accounting for Construction
                    Costs in the Federal Buildings Fund,
                    Reg ion 8                                 04/26/82

5D-2016l-08-08     Review of Obligations, Section 1311,
                   Public Law 663, Fiscal Year 1981,
                   Region 8                                   04/26/82
                                 48
                                                             APPENDIX I
                                                             Page 3 of 34


                          REPORT REG ISTER
                          INTERNAL AUDITS

                                                               Da te of
Number                                 Title                   Report
    .----.-.- -
              ..                 ------      ------------
3W-20384-05-05      Letter Report - Return of Unused
                    Air Fares, United Airlines, Inc.           04/26/82

4I-00084-02-02-F(1) Short Form Followup - More Emphasis
                    Should Be Placed on Energy Conserva-
                    tion in Region 2                           04/27/82

4M-20474-04-04      Internal Controls for Administering
                    Contracts at the Interagency Data
                    Systems Facility, Huntsville, Alabama,
                    Need To Be Improved                        04/27/82

4D-00274-ll-ll-F(1) Followup - Building Management Opera-
                    tions at the Mall Field Office Could
                    Be Improved                                04/28/82

SB-00667-ll-ll-F(1) Followup - Opportunities Exist for
                    Improving the Financial Condition
                    of the Working Capital Fund                04/28/82

4I-I0244-04-04-F(I) Followup - Region 4 Federal Protective
                    Service Division Security System
                    Program Lacked Direction                  04/28/82

4F-20435-11-11      Procurement of New Revolvers Should
                    Be Suspended                              04/28/82

4G-20589-04-04(c)   Letter Report - Pending Lease Award,
                    Lease No. GS-04B-2l375                    04/28/82

4G-20596-ll-ll-D    Letter Report - Proposed Award of
                    New Lease, Crystal Mall #1,
                    1911 Jefferson Davis Highway,
                    Arlington, Virginia                       04/28/82

3U-00535-08-08-F(2) Short Form Followup - Need for
                    Improvements in Motor Pool Operations
                    at Bismarck, North Dakota, Region 8       04/29/82

4E-l0571-02-02-F(1) Followup - Government Real Property
                    in Puerto Rico Has Been Improperly
                    Appropriated for Private Use              04/29/82

5D-l0744-07-07      Internal Controls Over Government
                    Transportation Requests Need To Be
                    Strengthened                              04/29/82
                                  49
                                                               APPENDIX I
                                                               Page 4 of 34

                          REPORT REGISTER
                          INTERNAL AUDITS

                                                                Date of
Number                                Title                     Report

4G-00688-09-09      Acquisition and Control of Leased
                    Space, Region 9                              05/04/82

5F-I0897-00-28      Systems Development Activities Relating
                    to the Monthly Operating Plan System        05/07/82

4G-20590-05-05-B    Letter Report - Preaward Lease Review,
                    Nuclear Regulatory Commission, Glen
                    Ellyn, Illinois, Contract No.
                    GS-05B-13543                                05/07/82

4G-20596-11-l1-C    Letter Report - Proposed Lease for
                    International Communications Agency,
                    Federal Center Plaza, 400 C Street, S.W.,
                    Washington, D.C., Lease No. GS-llB-20054 05/07/82

4G-20586-01-0l      Letter Report - Recommendation for
                    Suspension of Leasing Action for the
                    Pending Award of GS-OlB-(PRA)-03358
                    Neg                                         05/07/82

5W-00462-11-l1-F(1} Followup - Improved Monitoring
                    Techniques are Needed for Grants
                    Awarded by the National Archives
                    and Records Service                         05/11/82

3B-00627-02-02      Stockpile Operations of the Office
                    of Property Management, Federal
                    Property Resources Service, Zone 1          05/11/82

4G-00688-10-l0-F (1) Letter Followup - Leases Awarded
                     by Acquisition Branch Lacked
                     Documentation                              05/11/82

4D-II062-02-02      Public Buildings Service Accident
                    and Fire Prevention Program                 05/11/82

30-10402-03-03-F(1) Need for Implementation of Inventory
                    Controls for Self-Service Operations,
                    Pittsburgh, Pennsylvania                    05/12/82

4G-20589-04-04-d    Letter Report - Two-Year Lease
                    Extension, Lease No. GS-04B-14886           05/12/82

41-10780-02-02      Procurement of Security Systems
                    in Region 2                                 05/14/82

4G-20590-05-05-C    Letter Report - Preaward Lease Advisory
                    Review, HUD Area Office, 547 W. Jackson,
                    Chicago, Illinois, Contract No.
                    GS-05B-13956                                05/14/82
                                  50
                                                                 APPENDIX I
                                                                 Page 5 of 34
                          REPORT REGISTER
                          INTERNAL AUDITS
                                                                   Date of
Number                           -~-
                                      Title .-----.---~--.-.-.
                                                                  ..Report
3U-00606-02-02-F(I) Short Form Followup - GSA is
                    Susceptible to Overcharges for
                    Leased Motor Pool Vehicles, Region 2           05/19/82
3C-206 09-06 -0 4   Letter Report - Industrial Vulcanizing         05/19/82
4G-00688-07-07-F(I) Followup - Lease Award and Administra-
                    tion, Region 7                                OS/20/82
5D-I0922-09-09      Assignment of Parking in the
                    San Francisco Area, Region 9                  OS/21/82

3U-00212-04-04-F(I) Short Form Followup - The Transportation
                    and Public Utilities Service Needs to
                    Determine if the Number of Vehicles
                    Assigned to Airport Dispatch is Cost
                    Effective                                      OS/24/82

30-20391-07-07      Need for Timely Updating of Office
                    of Personal Property Inventory Manage-
                    ment Branch Due-In File                       OS/24/82

4C-Il042-04-04      Partition Contracts in Region 4 Need
                    More Competition                              OS/25/82

3N-20389-02-02      Letter Report - Small Purchase Procure-
                    ments in Region 2                             OS/25/82

3E-20753-00-23      The Deteriorated Roof at a Stockpile
                    Storage Depot is Adversely Affecting
                    Asbestos                                      OS/25/82
5D-I0921-05-05      Greater Management Oversight Could
                    Reduce Use of Overtime                        OS/28/82

6T-I0936-09-09      Contracting Officers Warrant Program,
                    Region 9                                      OS/28/82

4F-II041-03-03      Need for the Federal Protective
                    Service Division to Improve Internal
                    Controls                                      OS/28/82

4F-20518-10-10      Internal Controls Need to be Strengthened
                    to Better Protect, Account For, and
                    Utilize Government Equipment              OS/28/82



                                 51
                                                               APPENDIX I
                                                               Page 6 of 34
                          REPORT REGISTER
                          INTERNAL AUDITS

                                                                Date of
Number                                Title                     Report

3C-20203-06-06-F(1) Short Form Followup - Better Contract
                    Award Procedures Could Result in Lower
                    Moving Costs                                 06/03/82

3U-00648-09-09-F(1) Short Form Followup - More Can Be Done
                    to Promote Energy Conservation and
                    Reduce Parking Costs                        06/07/82

5D-00460-09-09-F(1) Followup - Controls Over Transactions
                    Financed From the Federal Buildings
                    Fund Need To Be Strengthened in Region 9    06/08/82

5Y-00530-05-22-F(1) Short Form Followup - Participation in
                    the Cuban Refugee Emergency Lacked
                    Adequate Procedures and Direction           06/08/82
5D-I0267-04-04-F(1) Short Form Followup - Region 4 Exceeded
                    Available Funds For Budget Activity 53,
                    Rental of Spac e                            06/09/82

4D-I0834-02-02     Deficiencies Associated with the Pricing
                   of Reimbursable Work Authorizations in
                   Region 2                                     06/09/82

70-9178-022-F(1)   Short Form Followup - Hazardous Health
                   Conditions in New York City, Region 2        06/10/82

4D-I0254-08-08     Letter Report - Installation of the
                   Physical Fitness Exercise Course at the
                   Denver Federal Center by the Office of
                   Public Buildings and Real Property in
                   Region 8                                     06/10/82

30-20604-08-08     Denver Customer Supply Center Operations     06/11/82

4E-I0255-05-05     The Carbondale FOB - Not Needed and
                   Functionally Obsolete                        06/16/82

3N-00619-09-09     Review of Advertised Procurements,
                   Office of Personal Property in Region 9      06/17/82

5F-12112-00-28     Computer Security and Firesafety - GSA
                   Board of Contract Appeals                    06/17/82

5T-20405-03-03     Administrative Control Over Record
                   Center Operations Can Be Improved            06/18/82

3W-20385-07-07     Letter Report - Refunds for Unused
                   Airlines, Texas International, Inc.          06/21/82
                                52
                                                               APPENDIX I
                                                               Page 7 of 34
                          REPORT REG ISTER
                          INTERNAL AUDITS

                                                                 Date of
Number                                Title                      Report
                                             ---
5Y-00530-03-03-F(1) Short Form Followup - The General
                    Services Administration (GSA's),
                    Region 3, Involvement in the Cuban
                    Refugee Emergency                            06/22/82

5F-00552-07-28-F(2) Short Form Followup - Computer Security
                    and Firesafety, Region 7                    06/24/82

5D-00669-05-05-F(1) Short Form Followup - Time and Attendance
                    Recordkeeping and Reporting Could
                    Be Improved                               06/24/82

5D-00155-06-06      Letter Report - Review of Federal Supply
                    Service Sales Adjustments and Contractor
                    Fund Codes                                  06/24/82

3B-I0218-06-06-F(1) Short Form Followup - Inadequate
                    Internal Controls Allow Conditions for
                    Improper Actions and Inefficiencies in
                    Inventory Management                        06/25/82

5D-I0743-0l-01-F(1) Short Form Followup - Use of the
                    Scheduled Airlines Traffic Office (SATO)    06/28/82

4M-00681-09-09-F(1) Short Form Followup - Procedures
                    for Awarding and Administering
                    Contracts for Telephone Services
                    Can Be Improved                             06/30/82

4M-I0859-l1-11      Significant Improvements Needed in the
                    Procedures Followed When Evaluating
                    Telecommunications Systems Proposals        07/01/82

3V-00056-02-02-F(1) Short Form Followup - Incorrect Shipping
                    Weights Are Resulting in Excessive
                    Freight Costs                               07/06/82

3U-00648-05-05-F(1) Followup - Vehicles Fuels Energy
                    Conservation Program                        07/07/82

5D-00088-07-07-F(1) Short Form Followup - Fiscal Year 1979
                    Obligations Meet Public Law Require-
                    ments, Region 7                             07/08/82




                                 53
                                                                APPENDIX I
                                                                Page 8 of 34

                            REPORT REGISTER
                            INTERNAL AUDITS

                                                                  Date of
Number                                  Title                     Report

5A-10748-08-08       Letter Report - Administrative Control
                     of Funds, Region 8                           07/09/82

4 F-20428-0 4-0 4    Special Review of Controls Over
                     Firearms and Other Property, Federal
                     Protective Service Division                  07/09/82

74-9425-044-F(1)     Short Form Followup - Architect/Engineer
                     Term Contract Program, Region 4, Needs
                     Direction                                   07/12/82

4M-20398-04-06       Letter Report - Acquisition and
                     Utilization of Word Processing Equip-
                     ment in Region 6                             07/13/82

54-8329-033-F(2)     Short Form Fo1lowup - Review of
                     Obligations Under Section 1311,
                     Public Law 663, Federal Buildings
                     Fund, Fiscal Year 1978, Region 3             07/14/82

4D-00687-ll-ll-F(1) Fol1owup - Building Management
                    Procurements at the Columbia Pike
                    Field Office Could be Improved               07/14/82

5D-20224-04-04-F (l) Short For;:-m Fol1owup - Some Impeest
                     Funds Are Not Adequately Peotected          07/14/82

4G-20774-06-06       Unrestricted Competition is Needed
                     in the Region 6 Leasing Program             07/15/82

4G-20800-04-04-a     Letter Repoet - Pending Lease Award,
                     Lease No. GS-04B-2215l                      07/15/82

4G-20800-04-04-b     Lettee Report - Pending Awaed, Lease
                     Extension, Lease No. GS-04B-11484,
                     Supplemental Agreement No. 132              07/15/82

5D-10265-02-02-F(1) Short Form Fo1lowup - Obligations
                    Recorded in the Federal Buildings Fund
                    are Overstated by $2.2 Million as of
                    the Close of FY 1980                         07/16/82

5D-00088-02-02-F(1) Shoet Form Fo11owup - Yearend Review
                    of Pedeea1 Buildings Accounts Needs
                    To Be Improved, Region 2, FY 1979            07/16/82

5D-00460-02-02-F(1) Fo11owup - Internal Controls Over
                    Federal Buildings Fund Payments Need
                    To Be Steengthened, Region 2                 07/16/82

                                  54
                                                               APPENDIX I
                                                               Page 9 of 34


                          REPORT REGISTER
                          INTERNAL AUDITS

                                                                 Date of
Number                                Title                      Report

5P-00467-04-04-F(1) Short Form Followup - GSA Can Achieve
                    Substantial Cost Savings by Eliminating
                    One Federal Information Center in
                    Florida, Using FTS Circuits to Reduce
                    Dependence on Foreign Exchange Service       07/19/82

5D-10742-11-11      Accountability for Government Trans-
                    portation Requests Can Be Improved           07/20/82

3E-90006-09-09-A-F(2) Followup - Controls Over Federally
                    Owned Surplus Property in California
                    Need To Be Strengthened, Region 9            07/21/82

5D-90053-02-02-F(1) Short Form Followup - Controls Over
                    Merchandise Delivered Directly to
                    Customers Need Improvement, Region 2         07/21/82

4G-20817-09-09      Letter Report - Preaward Audit of a
                    Proposed Lease, The Robert A. McNeil
                    Corp., A General Partnership in
                    Real Estate Investment and Management,
                    Solicitation No. GS-09B-82475               07/21/82

3G-00036-04-04-F(1) Short Form Followup - Region 4
                    Procedures for Awarding Contracts
                    on Multiple Award Schedules                  07/22/82

3E-10890-11-11      Letter Report - Carson City Silver
                    Dollar Sales Program                        07/22/82

5D-20157-04-04      Unliquidated Obligations and Yearend
                    Spending, Region 4, FY 1981                  07/23/82

4M-20171-05-05      Letter Report - Competitive Acquisition
                    of Local Telephone Service                  07/26/82

4M-20398-05-05      Letter Report - Proliferation of
                    Regional Word Processing Equipment          07/26/82

5D-10264-01-01-F(1) Letter Followup - Increased Management
                    Attention Should Be Directed to the
                    Validity and Timeliness of Obligations      07/27/82

4G-20800-04-04-c    Letter Report - Pending Lease Award,
                    Lease No. GS-04B-22215                      07/27/82

4E-00718-02-02-F(1) Short Form Followup - The Contract
                    to Renovate the Military Ocean Terminal,
                    Bayonne, New Jersey, Was Neither
                    Properly Awarded Nor Adequately
                    Administered                                07/28/82
                                 55
                                                               APPENDIX I
                                                               Page 10 of 34
                          REPORT REGISTER
                          INTERNAL AUDITS

                                                                 Date of
Number                                Title                      Report

4E-l0376-00-24-F(1) Short Form Followup - $4.8 Million Has
                    Been/Will Be Wasted Over 10 Years
                    Because a New U.S. Courthouse Has Been
                    and Will Remain Vacant                       07/28/82

3U-00622-l0-10-F(1) Short Form Followup - Use of Commercial
                    Rental Cars is More Economical Than
                    the Current Vehicles Dispatch Operations
                    at SeaTac Airport                           07/29/B2
3C-00626-09-09      The Property Rehabilitation Procurement
                    Program, Region 9                           07/30/82
4F-20425-01-01      Operations of the Federal Protective
                    Service, Region 1                           07/30/82
9B-20271-61-22      Letter Report - Interagency Audit of
                    Treasury-Based Disbursing System            08/05/82

4G-20817-09-09-A    Letter Report - Preaward Audit of a
                    Proposed Lease, Northpoint Investors,
                    A General Partnership, Solicitation
                    No. GS-09B-79864                            08/05/82

4G-20875-01-01-a   Letter Report - Extension of Lease
                   No. GS-OIB(PRA)-03254 Neg. at 100
                   Summer Street, Boston, Massachusetts         08/05/82
5N-l0582-00-22      Selected Activities of the Working
                    Capital Fund                                08/06/82
4F-00692-03-03-F(1) Short Form Followup - The Administra-
                    tion of Repairs and Alterations
                    Contracts in Region 3 Can Be Improved       08/09/82
4G-20800-04-04-d    Letter Report - Pending Lease Award,
                    Lease No. GS-04B-20730                      08/09/82
4G-20521-06-06      Letter Report - Space Management Actions
                    Relative to the Mart Building, St. Louis,
                    Missouri                                  08/10/82

30-00620-10-10-F(2) Short Form Followup - Need for
                    Improved Inventory Controls for
                    Self-Service Store Operations,
                    Seattle, Washington, Region 10              08/11/82
4G-20838-11-11-B   Letter Report - Proposed Supplemental
                   Lease Agreement, Rockwall Building,
                   11400 Rockville Pike, Rockville,
                   Maryland, Lease No. GS-03B-6124              08/11/82
                                56
                                                             APPENDIX I
                                                             Page 11 of 34
                          REPORT REGISTER
                          INTERNAL AUDITS

                                                               Date of
Number                                Title                    Report

4G-20838-ll-ll-D    Letter Report - Proposed Award of
                    Succeeding Lease, Scuderi Building,
                    4235 28th Avenue, Temple Hills,
                    Maryland, Lease No. GS-IIB-20074           08/11/82

4G-20838-11-11-E    Letter Report - Proposed Award of
                    Succeeding Lease, Rosslyn Plaza C,
                    1601 North Kent Street, Arlington,
                    Virginia, Lease No. GS-IIB-20073           08/11/82

4G-20817-09-09-B    Letter Report - Preaward Audit of a
                    Proposed Lease, The Museum Square
                    Associates, A California Partnership
                    Consisting of J. H. Snyder Co. and
                    Ogo Associates, Solicitation No.
                    GS-09B-82387                              08/12/82
5F-10465-00-28      Award of Systems Development Contract
                    for National Archives Trust Fund
                    Accounting System                         08/13/82
3D-20265-00-21      Procurement of Commercial Appraisal
                    Services                                  08/13/82

5F-20407-00-28      Minicomputer Procurement to Support
                    FSS-19 and Other Regional Requirements    08/13/82

4G-20828-07-07-A    Letter Report - Proposed Award of
                    Lease, Progreso International Bridge
                    Complex, Progreso, Texas                  08/13/82
4F-10779-06-06-F(1) Followup - The Region 6 Federal Pro-
                    tective Service Division Needs
                    Improved Planning and Evaluation for
                    Mission Accomplishment                    08/16/82

3N-I0207-06-06-F(1) Followup - The Formal Advertised
                    Procurement Process Would Be Improved
                    with Increased Emphasis on Internal
                    Controls and Greater Adherence to
                    Procurement Procedures                    08/17/82

4G-20824-03-03-A   Letter Report - Award of Succeeding
                   Lease, 6660 Security Boulevard,
                   Woodlawn, ~1aryland                        08/17/82

5D-20269-03-03-F(1) Short Form Followup - The Need to
                    Improve the Control of Imprest
                    Funds in Region 3                         08/24/82
                                57
                                                              APPENDIX I
                                                              Page 12 of 3·

                          REPORT REGISTER
                          INTERNAL AUDITS
                                                                Date of
Number                                Title                     Report
                             --------------
3U-00648-04-04-F(2) Short Form Followup - Underinflated
                    Tires and Erratic Service and
                    Maintenance Scheduling Impact
                    Adversely on Region 4's Vehicle
                    Fuel Conservation Program                   08/24/82

4G-00504-08-08-F(1) Short Form Followup - Delayed Billing
                    of $136,000 in User's Charges               08/25/82

5T-20403-l0-l0     Improved Controls and Practices are
                   Needed for More Effective Records
                   Protection, Prompt Records Disposition
                   and Storage Space Utilization, Federal
                   Archives and Records Center, Seattle,
                   Washington                                   08/25/82

5D-20404-02-02      Review of Internal Control Over GTRs,
                    Reg ion 2                                   08/25/82

4G-00504-02-02-F(1) Short Form Followup - GSA Is Not
                    Effectively Managing Its Space
                    Inventory, Region 2                         08/26/82

3N-l0206-0l-0l-F(l) Short Form Followup - Deficiencies
                    in the Award and Administration of
                    Contracts Under FSC Group 84, Region 1      08/26/82

4A-20l43-04-04-F(1) Short Form Followup - Financial Status
                    of Strom Thurmond Federal Building
                    Construction Project                        08/26/82

5D-20225-06-06-F(1) Followup - Improvements are Needed in
                    Administering and Safeguarding Region 6
                    Imprest Funds                               08/26/82

4G-00691-04-04-F(2) Followup - Procedures of the Appraisal
                    Staff Do Not Control the Appraisal
                    Process                                     08/27/82

3C-206l0-06-06     Letter Report - Evaluation of Performance
                   on Tire Retread and Repair Contracts,
                   Community Tire Retreading Company, Inc.,
                   St. Louis, Missouri"                      08/27/82

4G-2089l-06-06-A   Letter Report - Advisory Review of
                   Proposed Lease Award, Hanley Building,
                   200 South Hanley Road, Clayton,
                   Missouri, Lease No. GS-06B-28l26             09/01/82
                                58
                                                                APPENDIX
                                                                Page 13 of 3.

                           REPORT REGISTER
                           INTERNAL AUDITS

                                                                  Date of
Number                                 Title                      Report
                           -------------
5D-00294-04-04-F(3) Short Form Followup - Administrative
                    Approving Officials Need to Perform
                    More Detailed Review of Travel
                    Vouchers                                      09/03/82
4D-I0767-07-07-F(1) Short Form Followup - Pricing of
                    Reimbursable Work Authorizations,
                    Region 7                                      09/07/82
4D-I0827-07-07-F(2) Short Form Followup - Unauthorized
                    Vending in the Fritz G. Lanham
                    Federal Building, Region 7                    09/07/82
4G-20891-06-0G-B     Letter Report - Advisory Review of
                     Proposed Lease Award, Tower II,
                     Gateway Centre, 4th & State,
                     Kansas City, Kansas, Lease No.
                     GS-06B-28129                                 09/07/82
5D-206l7-10-10       Internal Controls Over Government
                     Transportation Requests, Teleticketing
                     and Travel Should Be Strengthened           09/08/82

4E-I0571-02-02-F(2) Short Form Followup - Government
                    Real Property in Puerto Rico Has
                    Been Improperly Appropriated for
                    Private Use                                  09/10/82

3C-20606-04-04       Operational Review of the Georgia
                     State Agency for Surplus Property,
                     Federal Surplus Property Program            09/10/82
4F-20897-05-05       Letter Report - Planned Upgrading
                     of Region 5 FPSD Control Center             09/10/82

4G-20838-11-1l-(f)   Letter Report - Proposed Award of
                     Succeeding Lease, 1919 M Street,
                     N.W., Washington, D.C., Lease No.
                     GS-1IB-200G8                                09/13/82
3U-00606-l1-11-F(1) Short Form Followup - Significant
                    Savings Can Be Achieved Through
                    Improved Administration of the
                    Leased Vehicle Program                       09/14/82
4G-20596-11-1l-(f)   Letter Report - Proposed Award of Lease,
                     122 C Street, N.W., Washington, D.C.,
                     Lease No. GS-IIB-20066                      09/16/82
                                 59
                                                               APPENDIX I
                                                               Page 14 of 3L

                          REPORT REG ISTER
                          INTERNAL AUDITS

                                                                 Date of
Number                                Title                      Report

30-20837-05-05      Letter Report - Shipment of Low Dollar
                    Value Items from the Supply Distribution
                    Facility (SDF)                               09/16/82
4G-20864-09-09      Audit of a Missed Lease Renewal Option,
                    Region 9                                     09/16/82
4G-20875-0l-0l(b)   Letter Report - Proposed Award of Lease,
                    Mechanics National Tower, Worcester
                    Center, Worcester, Massachusetts, Lease
                    No. GS-01B-(PRA)-03359 Neg.                  09/16/82

3D-20876-00-23      Proposed Sale of the 49 Fourth Street
                    Property, San Francisco, California          09/16/82

3C-12088-02-02      GSA Can Improve the Effectiveness of
                    Its Silver Recovery Program                  09/20/82

3C-12090-0 3-0 3    Need for Better Controls Over the
                    Administration and Operation of the
                    Sale, Abandonment, or Destruction
                    of Federal Surplus Personal Pro~erty         09/20/82

4G-20800-04-04(e)   Letter Report - Pending Lease Award,
                    Peachtree 25th Building, Atlanta,
                    Georgia, Lease No. GS-04B-22403              09/21/82

9D-20962-00-00      Review of Selected Investigative
                    Activities of the Office of Oversight        09/22/82

5 F-O 0528 -00-22   GSA Terminal Data Processing Equipment
                    is Vulnerable to Abuse                      09/23/82

5L-20406-09-09      Administrative Services Division,
                    Region 9                                    09/23/82

4G-209ll-08-08(a)   Letter Report - Proposed Award of
                    Lease, Chidlaw Building, 2221 East
                    Bijou Street, Colorado Springs,
                    Colorado                                    09/23/82
4M-20398-04-04      Acquisition and Utilization of Word
                    Processing Systems, Region 4                09/24/82
4D-208l5-09-09      Letter Report - Sansome Street Field
                    Office, San Francisco, California,
                    Buildings Management Division,
                    PB & RP, Region 9                           09/24/82

                                60
                                                               APPENDIX I
                                                               Page 15 of 3L

                          REPORT REGISTER
                          INTERNAL AUDITS

                                                                 Date of
Number                                 Title                     Report
   --~-,                                 -----
4G-20828-07-07(b)   Letter Report - Proposed Award of
                    Lease, 3450 Eastex Freeway, Beaumont,
                    Texas                                        09/24/82

5M-I0747-06-06-F(1) Followup - Greater Emphasis on Monitor-
                    ing Accomplishments, Training Counselors,
                    and Resolving Complaints Would Provide
                    a More Effective Equal Employment
                    Opportunity Program in Region 6           09/27/82

4M-I0914-07-07      Improvements Needed in Administration
                    and Monitoring of ADP Technical Services
                    Contracts                                    09/28/82

5D-20170-05-05-F(1) Short Form Followup - Imprest Funds
                    Need Better Management                       09/28/82

4G-20816-10-l0(c)   Letter Report - Proposed Award of
                    Lease, 2221 Northern Lights Boulevard,
                    Anchorage, Alaska, Contract No.
                    GS-IOB-05027                                 09/28/82

5D-20228-09-09-F(1) Short Form Followup - Controls Over
                    Imprest Funds, Region 9                      09/28/82

4D-I0771-07-07-F(1) Short Form Followup - Improvements
                    Needed in Accident and Fire
                    Prevention Program                           09/29/82

41-10833-06-06      The Region 6 Federal Protective Service
                    Division Needs to Improve Management
                    of the Secur i ty Sys tems Program           09/29/82

4N-20451-06 -06     Improved Cost Recovery and Account-
                    ability Are Needed in the Region 6
                    Electronic Services Program                 09/29/82

5D-20154-01-01      Unliquidated Obligations and Yearend
                    Spending, FY 1981, Region 1                 09/30/82

3N-20390-03-03      Letter Report - Reg ion 3 r1anagement of
                    Federal Supply Schedule Contracts for
                    Photographic Equipment, FSC 67,
                    Part III-B                                  09/30/82

4G-20838-11-11-G    Letter Report - Proposed Award of
                    Lease, Melpar Building, 7700 Arlington
                    Boulevard, Falls Church, Virginia,
                    Lease No. GS-IIB-20086                      09/30/82

                                 61
                                                               APPENDIX I
                                                               Page 16 of 34

                          REPORT REGISTER
                          CONTRACT AUDITS

                                                                 Date of
Number                                Title                      Report

2C-l064l-00-05(b)   Price Reduction and Defective Pricing,
                    Victor Business Products, A Subsidiary
                    of Walter Kidde & Co., Inc., Contract
                    No~ GS-00S-03303                             04/01/82

2U-205l5-06-0l      Claim for Increased Costs, Raytheon
                    Service Co., Contract No. GS-06S-l0882       04/01/82

2J-20496-ll-ll      Preaward Evaluation of Pricing
                    Proposal, Sparkle Trucking Co.! Inc.,
                    Contract No. GS-llC-20048                    04/05/82

lM-20506-ll-11      Letter Report - Evaluation of Contract
                    Pricing Proposal, TDC Management Corp.       04/05/82

2C-l1017-09-05      Price Reduction and Defective Pricing,
                    Clarke Division, Clarke-Gravely Cocp.,
                    Contract No. GS-09S-40565                   04/06/82

lJ-205ll-02-02      Letter Report - Compliance with License
                    Agreement by the City of New York,
                    Army Pictorial Center, Queens, New York      04/07/82

2C-l064l-00-05(a)   Price Reduction and Defective Pricing,
                    Victor Business Products, A Subsidiary
                    of Walter Kidde & Co., Inc., Contract
                    No. GS-00S-92646                             04/08/82

2C-10647-00-07      Price Reduction and Defective Pricing,
                    Acoustical Screens in Color, Inc.,
                    Contract No. GS-00S-81330                   04/08/82

lD-20032-0l-0l      Evaluation of Delay Claim for Increased
                    Construction Costs, Jay-Mar, Inc.,
                    Subcontractor to Roubin & Janeiro, Inc.,
                    Under Contract No. GS-OlB-01582             04/09/82

2J-20530-07-07      Preaward Evaluation of Pricing Proposal,
                    John Baker Janitorial Service, Inc.,
                    Contract No. GS-07B-21l37                   04/09/82

lA.-20532-06-08     Preaward Evaluation of Pricing Proposal,
                    Rogers, Nagel, Langhart, Inc., Project
                    No. GS-06B-05l09                            04/09/82



                                 62
                                                               APPENDIX I
                                                               Page 17 of 3

                          REPORT REGISTER
                          CONTRACT AUDITS

                                                                  Date of
Number                           ___Title                         Repo~


2B-2063l-l0-0l      Preaward Evaluation of Price Proposal,
                    Tra-Con Corp., Solicitation No.
                    10PN-HRS-0095                                04/09/82

2B-20450-00-l0      Preaward Evaluation of Price Proposal
                    for Measurement and Test Instruments,
                    FS Schedule 66-II-H, John Fluke
                    Manufacturing Co., Ijnc.                     04/12/82

lW-20503-02-02      Letter Report - Audit of Progress
                    Payments, Marcel Breuer Associates,
                    James Stewart Polshek and Partners,
                    Goldman-Sokolow-Copeland, A Joint
                    Venture, Contract No. GS-02B-23070          04/12/82

IT-20709-02-02      Evaluation of Termination Settlement
                    Proposal, Libra Associates, Inc.            04/12/82

lL-10956-04-04(a)   Letter Report - Lease Escalation
                    Review, Lease No. GS-04B-15226              04/13/82

lL-20534-04-04      Letter Report - Lease Escalation
                    Review, Contract No. GS-04B-15902           04/13/82

lS-20513-1l-ll      Preaward Evaluation of SBA 8(a)
                    Pricing Proposal, Arlington Painting
                    and Construction Co., Inc., Contract
                    No. GS-11B-08359                            04/14/82

lW-20472-11-11      Preaward Evaluation of Pricing Proposal
                    for a Sole Source Procurement, Air
                    Pollution Control Products, Inc.,
                    Contract No. GS-l1B-28l83                   04/15/82

2B-20347-10-03      Preaward Evaluation of Pricing Proposal,
                    Dudley Sports Company, A Division of
                    Anthlone Industries, Inc., Solicitation
                    No. 10PN-HRS-0095                           04/16/82

2E-2050l-02-02      Preaward Evaluation of Pricing Proposal
                    and Qualification Under Walsh-Healey
                    Public Contracts Act, GFC Manufacturing
                    Co., Inc.                                   04/16/82
lL-20333-09-09      Letter Report - Preaward Audit of a
                    Proposed Lease, Trizec Western Inc.,
                    Solicitation No. GS-09B-81989, for
                    Property in Marina Del Rey, California      04/19/82
                                63
                                                             APPENDIX I
                                                             Page 18 of 34
                        REPORT REGISTER
                        CONTRACT AUDITS

                                                               Date of
Number                              Title                      Report

lL-10943-02-02    Lease Escalation Proposal, Whitestone
                  Associates, 130-30 31st Avenue,
                  College Point, New York, Lease No.
                  GS-02B-17982                                04/20/82

lL-20329-09-09    Lease Escalation Proposal, Kaiser
                  Industries Corp., Lease No.
                  GS-09B-6682                                 04/21/82

lD-OO 190-11-11   Claim for Increased Costs, Jones &
                  Artis/G&M, A Joint Venture, Contract
                  No. GS-03B-78049                            04/22/82

lS-205l7-1l-ll    Preaward Evaluation of Pricing Proposal,
                  Diplomatic Painting and Building
                  Services Co., Inc., Contract No.
                  GS-I1C-20074                                04/22/82

lB-20675-08-08    Preaward Evaluation of Pricing Proposal,
                  Oliver and Hellgren Architects, P.C.,
                  Project No. Z-CO-8l-002                     04/22/82

2C-20085-00-02    Letter Report - Price Reduction and
                  Defective Pricing, Deknatel, Division
                  of Homedica, Inc., Contract No.
                  GS-00S-86723                                04/23/82

2C-20367-00-l0    Letter Report - Price Reduction and
                  Defective Pricing, McHenry Systems,
                  Inc., Contract No. GS-00S-85298             04/23/82

lL-20437-ll-ll    Lease Escalation Proposal, Plaza
                  Associates, Lease No. GS-03B-80085          04/23/82

2C-20487-00-09    Letter Report - Price Reduction and
                  Defective Pricing, Cushman Electronic's,
                  Inc., San Jose, California, Contract
                  No. GS-00S-8l365                            04/23/82

lL-20436-ll-ll    Lease Escalation Proposal, Plaza
                  Associates, Lease No. GS-03B-6639           04/26/82

lC-20500-06-06    Evaluation of Change Order Proposal
                  (P-8l), C. Rallo Contracting Co.,
                  Inc., St. Louis, Missouri, Contract
                  No. GS-06B-8l00l                            04/26/82


                               64
                                                             APPENDIX I
                                                             Page 19 of 34

                          REPORT REGISTER
                          CONTRACT AUDI'rs

                                                                Date of
Number                                Title                     Report

2S-20204-00-01      Let.t.er Report - Price Reduction and
                    Defective Pricing, Digital Equipment.
                    Corp., Cont.ract Nos. GS-00C-02546
                    and GS-00C-02943                           04/27/82

IN-20249-03-03      Evaluation of Lessor's Operating
                    and Ownership Costs, 370 Office
                    Associates, Inc., c/o Compass Realty
                    Co., Lease Nos. GS-03B-80228 and
                    GS-03B-00586                              04/27/82

2J-20350-04-04(a)   Letter Overhead and Profit Rates,
                    Hyde's Security Services, Inc.            04/27/82

IB-20674-08-08      Preaward Evaluation of Pricing
                    Proposal, Case, Lowe & Hart, Inc.,
                    Project No. Z-UT-82-001                   04/27/82

2B-20531-09-08      Preaward Evaluation of Pricing
                    Proposal, Economics Laboratory, Inc.,
                    Solicitation No. 9FCB-OLV-M-A0536/81      04/29/82

lS-20731-06-06      Preaward Evaluation of Pricing
                    Proposal, Louisa Construction Co.,
                    Inc., Topeka, Kansas, Contract No.
                    GS-06B-03591                              04/29/82

lL-20682-09-09      Letter Report - Lease Escalation
                    Proposal, C&C Investments, 211 Main
                    Street, San Francisco, California,
                    Lease No. GS-09B-6600                     04/30/82

lL-20728-02-02      Letter Report - Lease Escalation
                    Proposal, West 57th Street Parking
                    Co., 622-640 W. 57th Street, New York,
                    New York, Lease No. GS-02B-18652          05/03/82

2C-I0871-00-03      Post Award Audit, Remington Rand
                    Corporation, Contracts GS-00S-03002
                    and GS-00S-23146                          05/04/82

lL-20321-05-05      Lease Escalation Proposal, American
                    National Bank of Chicago, Trustee
                    Under Trust No. 32501 and Trust No.
                    40589, Lease No. GS-05BR-12005            05/06/82

lL-10130-02-02      Lease Escalation Proposal, Hemisphere
                    Group, Newark International Plaza,
                    Newark, New Jersey, Lease No.
                    GS-02B-18628                              05/10/82

                                 65
                                                            APPENDIX I
                                                            Page 20 of 34

                        REPORT REGISTER
                        CONTRACT AUDITS

                                                              Date of
Number                               Title                    Report

2B-20072-00-01   Preaward Evaluation of Pricing Proposal,
                 Waters Associates, Solicitation No.
                 FCGS-P-36396-N-1-12-82                       05/13/82

lL-20318-05-05   Lease Escalation Proposal, Cleveland
                 Joliet Company, Lease No. GS-05B-12235      05/17/82

IT-20653-04-04   Claim for Increased Cost.s, Capital
                 Electric Company, Federal Building and
                 U.S. Courthouse, Fort Lauderdale,
                 Florida, Contract No. GS-04B-16555          05/17/82

lC-20716-11-11   Letter Report - Change Order Proposal,
                 Owens Corning Fiberglas, Wolff &
                 Munier, Inc., Joint Venture,
                 Contract No. GS-00B-02839                   05/18/82

2E-20727-01-09   Letter Report - Eligibility as a
                 Regular Deal er Und er Walsh-H eal ey 1
                 Walter W. Cribbins Co., Inc.,               05/18/82

2J-20667-06-06   Preaward Evaluation of Pricing
                 Proposal, N.C.T. Services, Inc.,
                 Kansas City, Missouri, Contract No.
                 GS-06B-27514-01                             05/19/82

lL-20520-05-05   Lease Escalation Proposal, Financial
                 Services Development, Inc., Lease
                 No. GS-05B-12l12                            OS/20/82

lL-20639-02-02   Lease Escalation Proposal, Samuel
                 Caspert & Son, 193 Avon Avenue,
                 Newark, New Jersey, Lease No.
                 GS-02B-18610                                OS/20/82

IB-20737-11-05   Preaward Evaluation of Proposed
                 Overhead Rate, Hanscomb Associates,
                 Inc., Proposal No. GS-llB-19055             OS/20/82

2J-20634-01-01   Evaluation of Pricing Proposal,
                 M & H Building Services, Inc.               OS/26/82

2C-12035-00-02   Price Reduction and Defective
                 Pricing, Becton Dickinson, Contract
                 No. GS-00S-86092                            OS/27/82

2G-20369-10-10   Letter Report - Labor Hour Audit of
                 Elect.ronic Data Systems Federal
                 Corporation                                 OS/27/82

                                66
                                                           APPENDIX I
                                                           Page 21 of 34

                       REPORT REGISTER
                       CONTRACT AUDITS

                                                             Date of
Number                             Title                     Report.

2A-20738-04-03   Preaward Evaluation of Pricing
                 Proposal, Selby, Battersby & Co.,
                 Solicitation No. AT/TC 19225               OS/27/82

lS-205l2-11-ll   Preaward Evaluation of Pricing
                 Proposal, J. Callaham Refuse Hauling,
                 Inc., Contract No. GS-llC-20089            OS/28/82

lL-20681-09-09   Lease Escalation Claim, Trizec Western,
                 Inc., Lease No. GS-09B-76206               OS/28/82

lL-2069l-l1-1l   Lease Escalation Proposal, Gelman
                 Building Ltd., Partnership, Lease
                 No. GS-03B-60l7l                           OS/28/82

2B-20742-07-05   Preaward Evaluation of Price
                 Proposal, General Instrument Corp.,
                 Lamp Division, Solicitation No.
                 7CF-522l3/L5/7FC                           OS/28/82

2H-12ll8-00-ll   Price Reduction and Defective Pricing,
                 Fisher Scientific Corp. (VA Contracts)     OS/28/82


2C-II002-00-02   Price Reduction and Defective Pricing,
                 Xerox Corp., Contract No. GS-00S-0306l     06/01/82

2S-20074-00-0l   Price Reduction and Defective Pricing,
                 Codex Corp., Contract Nos.
                 GS-00C-0176l, GS-00C-02l6l, and
                 GS-00C-0280l                               06/01/82

2U-20082-00-03   Post Award Audit, Cost and Pricing
                 Data, Aydin Vector Division, Contract
                 No. GS-00S-66293                           06/01/82

2S-12000-00-01   Price Reduction and Defective Pricing,
                 Computer Devices, Inc., Contract No.
                 GS-OOC-01680                               06/03/82

lC-20047-06-06   Change Order Proposal (P-73), C. Rallo
                 Contracting Co., Inc., St. Louis,
                 Missouri, Contract No. GS-06B-8l00l        06/04/82

10-20650-03-03   Contractor's Claim for Increased Costs,
                 Hill International, Inc., Contract No.
                 GS-00B-2225                                06/04/82

lJ-20698-ll-11   Letter Report - Claim for Lessor's
                 Services, Vanguard Associates,
                 Lease No. GS-ll-B-l0008                    06/04/82

                              67
                                                                APPENDIX I
                                                                Page 22 of _

                           REPORT REGISTER
                           CONTRACT AUDITS
                                                                   Date of
Number                   _______________T_i_t_l_e______            Repor~
   .---
lW-20739-03-03       Proposed Labor Rates, Hill International,
                     Inc., Contract No. GS-00B-2225            06/04/82

2B-20ll6-00-l0       Preaward Evaluation of Pricing Proposal,
                     Tektronix, Inc., Beaverton, Oregon          06/07/82

2 B-20339 -0 0- 01   Preaward Evaluation of Price Proposal,
                     Nashua Corp., Solicitation No.
                     2FC-NDZ-N-A0662Q                             06/10/82

lC-20508-l1-ll       Preaward Evaluation of Change Order
                     Proposal, CMS Contractors, Inc.,
                     Contract No. GS-03B-98l06                   06/10/82

2H-20640-02-02       Letter Report - Cafeteria Concession
                     Operations, Canteen Corp., Contract No.
                     GS-02B-19656                                06/10/82

1 T-2076 2-06 -06    Evaluation of Termination Settlement
                     Proposal, Dynetics, Inc., Madison
                     Heights, Michigan, Contract No.
                     GS-06S-l2082                                06/10/82

2J-20366-l0-l0       Evaluation of Pricing Proposal,
                     Burks Cleaning Service, Contract No.
                     GS-10B-50804-0l                             06/11/82

lL-20320-05-05       Lease Escalation Proposal, Detroit
                     and Canada Tunnel Corp., Lease No.
                     GS-05B-12863                                06/14/82

2J-20684-l0-l0       Evaluation of Pricing Proposal,
                     Handyman Building Maintenance Co.,
                     Contract No. GS-10-B-50783-01               06/14/82

2M-00240-ll-ll       Letter Report - Audit of Guest Services,
                     Inc., Contract No. GSA-PBR-l                06/15/82

lD-2 0307-03-02      Claim for Delay Costs, Wolff & Munier,
                     Inc., Contract No. GS-03B-78059             06/15/82

2B-20630-10-0l       Preaward Evaluation of Pricing Proposal,
                     Spalding Sports Worldwide, Solicitation
                     No. 10PN-HRS-0095                           06/15/82

2C-ll028-09-08       Price Reduction, Economics Laboratory,
                     Inc., Contract Nos. GS-09S-40649 and
                     GS-09S-40508                                06/17/82

                                  68
                                                              APPENDIX I
                                                              Page 23 of -

                         REPORT REGISTER
                         CONTRACT AUDITS

                                                                 Date of
Number                                  Title                    Report
                   .~----------------

ID-00713-03-11     Claim for Increased Costs, John H.
                   Hampshire, Inc., Contract No.
                   GS-00B-02839                                 06/18/82

2Q-20516-00-11     Preaward Evaluation of pricing Proposal,
                   Watkins-Johnson Co., Solicitation No.
                   RFP GSC-CDPS-C-K-0000I-N-11-21-79            06/18/82

1L-20665-06-06     Lease Escalation Proposal, Boulevard
                   Office Park, Wichita, Kansas, Lease No.
                   GS-06B-14274                                 06/18/82

ID-20495-04-10     Letter Report - Claim for Increased Costs
                   for Differing Site Conditions During
                   Construction of The Richard B. Russell
                   Federal Building                          06/21/82

2C-20091-00-05     Price Reduction and Defective Pricing,
                   Gilford Instrument Laboratories, Inc.,
                   Contract No. GS-00S-86694                   06/22/82

2C-20092-00-05     Price Reductions and Defective Pricing,
                   Gilford Instrument Laboratories, Inc.,
                   Contract No. GS-00S-87041                   06/22/82

2J-20087-04-04     Price Proposal for Guard Service,
                   Louisville, Kentucky, Hyde's
                   Security Services, Inc., Contract
                   No. GS-04B-82519                            06/22/82
lA-2076 0-0 2-02   Letter Report - Price Adjustment,
                   Marcel Breuer Associates, James Stewart
                   Polshek and Partners, Goldman-Sokolow-
                   Copeland, Joint Venture, Contract No.
                   GS-02B-23070                                06/22/82

2C-II033-00-09     Price Reduction and Defective Pricing,
                   National Cash Register Corp., Micro-
                   graphic System, Contract No.
                   GS-00S-92243                                06/23/82

ID-20037-03-02     Claim for Delay Costs, Wolff & Munier,
                   Inc., Subcontractor to USS-OCF-W&M,
                   Joint Venture Under Prime Contract No.
                   GS-00B-02839                                06/23/82

lL-20336-11-11     Lease Escalation, 19th & M Street
                   Associates, Lease No. GS-03B-6512           06/23/82
                              69
                                                                APPENDIX I
                                                                Page 24 of 34
                          REPORT REGISTER
                          CONTRACT AUDITS

                                                                  Date of
Number:                               Title                       Repoct

2A-207l0-04-04      Pceawacd Evaluation of Fedecal Supply
                    Secvice, Pcicing Pcoposal, Sacgent and
                    Gceenleaf, Inc.,
                    Solicitation No. AT/TC 1973                   06/23/82

2A-20720-00-07      Pr:eaward Evaluation of Pcicing Pcoposal,
                    Hoovec Systems, Acoustical Scceens in
                    Coloc, Inc., Contcact No.
                    GS-00S-20l74, Renewal No. 1                  06/23/82

lD-20723-ll-11      Claim foc Incceased Costs, Whiting-
                    Turnec, Contcacting Co., Inc.,
                    Contcact No. GS-03B-7804l                    06/23/82

lS-20758-06-06      Preawacd Evaluation of pcicing Proposal,
                    Couctney Day, Inc., Kansas City,
                    Missour:i                                    06/23/82
lL-20284-ll-11      Lease Escalation Pcoposal, UMET Tcust,
                    Chestec Acthuc Building, Lease No.
                    GS-03B-6422                                  06/24/82

lL-20747-02-02      Lease Escalation Pcoposal, 953 Realty
                    Cocp., 953 Souther:n Boulevacd, Bconx,
                    New Yock, Lease No. GS-02B-1864l             06/25/82

lD-20646-02-02      Claim - MWR Constcuction Cocp.               06/25/82

IT-20775-ll-11      Tecmination - Hunter: Millec Assoc.          06/29/82

2A-20763-00-03      Contcact Pcicing Pcoposal, Ikselah
                    Cocp., Solicitation No. FCGE-M8-75227N       06/29/82
lD-20734-00-25-D    Claim foc Incceased Costs, Planning
                    Reseacch Cocp., Contcact No.
                    GS-00B-2238                                  06/30/82

lB-20752-03-03      Pceawacd Evaluation of Supplemental
                    A/E Pcoposal, Diamond McCune, Inc.           07/01/82

2C-l0640-00-05(a)   Pcice Reduction and Defective Pcicing,
                    Amecican Hospital Supply Cocp.,
                    Amecican Convectors Division,
                    Contcact No. GS-00S-64l33                    07/06/82

2C-l0640-00-05(b)   Pcice Reduction and Defective Pcicing,
                    Amecican Hospital Supply Corp.,
                    Amecican Convectocs Division,
                    Contcact No. GS-00S-86840                    07/06/82
                                 70
                                                              APPENDIX I
                                                              Page 25 of 3

                         REPORT REGISTER
                         CONTRACT AUDITS
                                                                 Date of
Number                       ________T_itle                      Repor~_
~~----



2B-20342-00-02     Preaward Evaluation of Price
                   Proposal, Savin Corp., Solicitation
                   No. FCGE-M8-75227-N                          07/06/82

2H-20528-44-04     Post Award Audit of Sole Source Guard
                   Contract, No. INS-FA-2-8l, for Period
                   August 11, 1981-March 22, 1982,
                   Security Associates International,
                   Fort Allen, Puerto Rico                      07/08/82

2B-20754-00-0l     Preaward Evaluation of Price Proposal,
                   Millipore Corp., Bedford, Massachusetts     07/09/82

2C-00602-00-ll     Letter Report - Price Reduction and
                   Defective Pricing, Fisher Scientific
                   Co., Contract No. GS-00S-0408l, FSC
                   Group 66, Part II, Section B                07/12/82

2C-20340-00-0l     Price Reduction and Defective Pricing,
                   Bruel & Kjaer Instruments, Inc.,
                   Marlborough, Massachusetts                   07/12/82

lA-20778-ll-ll     Preaward Evaluation of A/E Pricing
                   Proposal, Gormley/Wareham Associates,
                   P.A. et. al., Joint Venture, Contract
                   No. GS-llB-19056                            07/12/82

lD-20283~11-11     Claim for Increased Costs,
                   W. M. Schlosser Co., Inc., Contract
                   No. GS-03B-78080                            07/13/82

lL-2 0497-08 -08   Lease Escalation Proposal, Carrera
                   Corp., Agricultural Photo Laboratory,
                   Salt Lake City, Utah, Lease No.
                   GS-08B-10728                                07/13/82

lL-207l3-05-05     Lease Escalation Proposal, Associated
                   Planners, Inc., Lease No. GS-05B-12504      07/13/82

2A-20502-00-03     Preaward Evaluation of Pricing Proposal,
                   Art Metal-U.S.A., Inc., Solicitation
                   No. FNMA-A2-ll89-N-2-9-82                   07/14/82

lD-20645-02-02     Evaluation of Claim for Increased
                   Construction Costs Due to Delay,
                   Kalisch-Jarcho, Inc., Subcontractor
                   to Carlin-Atlas, Inc., Under Prime
                   Contract No. GS-02B-16835                   7/14/82
                              71
                                                               APPENDIX I
                                                               Page 26 of 34
                         REPORT REGISTER
                         CONTRACT AUDITS
                                                                 Date of
Number                               Title                       Report
2J-20669-06-06     Preaward Evaluation of Pricing Proposal,
                   Ridley Southside Janitorial Service,
                   Inc., Kansas City, Missouri, Contract
                   No. GS-06B-27550-01                           07/16/81

2Q-20787-00-26-D   Preaward Evaluation of Pricing Proposal,
                   ITT Defense Communications Division,
                   Solicitation No. CDPXE-82-00l-3-30-82         07/16/82
lL-20825-04-04     Lett.er Report - Lease Escalation Review,
                   Title Building, Atlanta, Georgia,
                   Contract No. GS-04B-08304                    07/19/82

lL-20826-04-04     Letter Report - Lease Escalation Review,
                   Pershing Point, Atlanta, Georgia,
                   Lease No. GS-04B-15262                       07/19/82

lA-20633-0l-0l     Preaward Evaluation of Pricing Proposal,
                   Arrowstreet, Inc.                            07/21/82

2S-20745-00-07     Letter Report - Price Reduction and
                   Defective Pricing, University Computing
                   Co., Contract No. GS-00C-01878               07/21/82
1B-20832-02-0 2    Letter Report - Preaward Evaluation of
                   Pricing Proposal for Supplemental A/E
                   Services, Lawrence Picone and Associates,
                   Inc., Contract No. GS-02B-23l64           07/22/82

2J-20670-06-06     Preaward Evaluation of Pricing Proposal,
                   Glow Janitorial and Cleaning Service,
                   St. Louis, Missouri, Contract No.
                   GS-06B-27573-0l                              07/23/82

lJ - 20781-11-11   Claim for Overtime Services, North-
                   western Development Co., Lease No.
                   GS-03B-0652l                                 07/23/82

lB-20802-02-02     Preaward Evaluation of Pricing Proposal
                   for Supplemental A/E Service, William A.
                   Hall and Associates                          07/23/82

lC-20839-ll-ll     Preaward Evaluation of Credit Change
                   Order, Contract No. GS-03B-88lS1             07/23/82

2R-20847-00-09     Letter Report - Preaward Evaluation
                   Pricing Proposal, Versatec, Inc.,
                   Santa Clara, California, Solicitation
                   No. GSC-CDPS-C-0002l-5-l2-82                 07/23/82
                                72
                                                            APPENDIX I
                                                            Page 27 of 34
                       REPORT REGISTER
                       CONTRACT AUDITS

                                                               Date of
Number                             Title                       Report

2M-20743-08-08   Southern Cafeteria Operating Co., Inc.,
                 Contract No. GS-08B-08776                    07/26/82

IN-20820-05-05   Preaward Evaluation of Proposed Base
                 Period Operating Costs, One North Wacker
                 Venture, Lease No. GS-05B-12276              07/27/82

2A-20649-00-03   Preaward Evaluation of Pricing Proposal,
                 Art Metal-U.S.A., Inc., Solicitation
                 No. FNMA-Al-1173-N-2-9-82                   07/28/82

2J-20668-06-06   Preaward Evaluation of Pricing Proposal,
                 N.C.T. Services, Inc., Kansas City,
                 Missouri, Contract No. GS-06B-27611-01      07/28/82

lL-20337-11-11   Net Rent Calculation for the Lansburgh's
                 Department Store Building, District of
                 Columbia Government                         07/30/82
2B-20354-00-04   Preaward Evaluation of Pricing Proposal
                 for Dictating Equipment, Lanier Business
                 Products, Inc., Solicitation No.
                 FCGE-Y7-75209-N                             07/30/82

lL-20718-11-11   Lease Escalation Proposal, Equitable
                 Life Assurance Society of the U.S.,
                 Lease No. GS-03B-6334                       07/30/82

lL-20317-05-05   Lease Escalation Proposal, O'Hare
                 Lake Office Plaza, Ltd., Lease No.
                 GS-05BR-I0740                               08/02/82

lD-20647-02-02   Evaluation of Claim for Increased
                 Construction Costs Due to Delay,
                 Norkin Plumbing Co., Inc., Sub-
                 Contractor to Carlin-Atlas, Contract
                 No. GS-02B-16835                            08/02/82

lL-20730-08-08   Lease Escalation, Equity Management,
                 Inc., Durango Federal Building, Durango,
                 Colorado, Lease No. GS-08B-09877            08/02/82

2R-20783-00-04   Preaward Evaluation of Pricing Proposal
                 for Word Processing Typing Systems,
                 Lanier Business Products, Inc., Solici-
                 tation No. GSC-CDPS-C-00021-N-5-12-82       08/02/82

lL-20844-04-04   Letter Report - Lease Escalation Review,
                 American Management Co., 2121 Building,
                 Birmingham, Alabama, Lease No.
                 GS-04B-15578                                08/02/82
                              73
                                                              APPENDIX I
                                                              Page 28 of 34

                         REPORT REGISTER
                         CONTRACT AUDITS

                                                                Date of
Number                               Title                      Report

2J-20686-l0-l0     Letter Report - Review of Contractor's
                   Proposal, Northwest Building Maintenance,
                   Contract No. GS-lOB-50837-0l              08/04/82

2B-20362-00-08     Proposed Multiple Award Contract for
                   Information Handling Services,
                   Solicitation No. FCGE-B9-75224-N            08/05/82

2J-208l9-06-06     Preaward Evaluation of Pricing Proposal,
                   Olde English Building Services, Inc.,
                   Omaha, Nebraska, Contract No.
                   GS-06B-27530-0l                             08/05/82

2S-ll030-00-09     Price Reduction and Defective Pricing,
                   Versatec, Inc., Contract Nos.
                   GS-00C-01577, GS-00C-01828, and
                   GS-00C-0250l                                08/06/82

2S-l0652-00-08     Price Reduct.ion, Network Systems
                   Corporation, Contract No. GS-00C-01936      08/10/82

1D-20787-ll-1l     Claim for Increased Costs, Thomason
                   Industries, Inc., Contract No.
                   GS-00B-03l69                                08/10/82

2B-20845-00-26-D   Evaluation of Price Proposal, Norden
                   System, Inc., Solicitation No.
                   GSC-CDPS-C-0002l                            08/11/82

2B-20852-10-10     Preaward Evaluation of Price Proposal
                   for Special Industry Machinery, Chain
                   Saws, FS Schedule 36-V, Cascade
                   Pacific International                       08/12/82

lB-20860-02-02     Letter Report - Preaward Evaluation
                   of Pricing Proposal for Supplemental
                   A/E Services, Lebron Associates,
                   Contract No. GS-02B-23l63                   08/12/82

lC-20873-ll-11     Evaluation of Change Order Proposal,
                   The George Hyman Construction Co.,
                   Contract No. GS-03B-88963                   08/12/82

1L-20306-02-02     Letter Report - Lease Escalation
                   Proposal, Coldwell Banker, 237 South
                   Street, Morristown, New Jersey, Lease
                   No. GS-02B-18594                            08/13/82

                                74
                                                            APPENDIX I
                                                            Page 29 of 34

                        REPORT REGISTER
                        CONTRACT AUDITS

                                                               Date of
Number           __________________~T_i._t_1_e_____            Report

1L-20729-08-08   Lease Escalation, Equity Management,
                 Inc., Lakewood Office Plaza, Lakewood,
                 Colorado, Lease No. GS-08B-09899             08/13/82

2R-20849-00-10   Preaward Evaluation of Price Proposal
                 for Automatic Data Processing Equipment
                 and Software FSC Group 70, Part I,
                 Section A, Tektronix, Inc., Beaverton,
                 Oregon, Solicitation No. GSC-CDPS-C-
                 00021-N-5-12-82                              08/13/82

1C-10884-07-07   Preaward Evaluation of Change Order
                 No.2, CRS Design Associates, Inc.,
                 Contract No. GS-03B-79040                   08/16/82

2B-20642-00-02   Preaward Evaluation of Pricing Proposal,
                 Dictaphone Corporation, Solicitation No.
                 FCGE-Y7-75209-N                             08/17/82

2R-20769-00-07   Preaward Evaluation of Pricing Proposal,
                 Datapoint Corporation, Solicitation No.
                 GSC-CDPS-C-0002l-N-5-l2-82                  08/17/82

2R-20814-00-07   Preaward Evaluation of Pricing Proposal,
                 Harris Data Communications, Inc.,
                 Solicitation No. GSC-CDPS-C-0002l-N-
                 5-12-82                                     08/17/82

1B-20863-11-03   Proposed Contract for A/E Design
                 Services, Kling-Lindquist, Inc.             08/17/82

2S-20638-00-02   Letter Report - Price Reduction and
                 Defective Pricing, Vydec, Inc.,
                 Contract No. GS-00C-01860                   08/18/82

2A-20651-00-03   Preaward Evaluation of Pricing
                 proposals, Art Metal-U.S.A., Inc.,
                 Solicitation No. FNMC-Cl-1125-N-1-6-82      08/18/82

10-20784-11-05   Letter Report - Cost Plus Fixed Fee
                 Contract, James H. Lowry & Associates,
                 Subcontractor, Contract No. GS-03S-5l814    08/19/82

1L-20717-11-11   Lease Escalation Proposal, Equitable
                 Life Assurance Society of the U.S.,
                 Lease No. GS-03B-70081                      08/20/82

2A-20823-00-04   Preaward Audit of FSS Pricing Proposal,
                 Marquette Metal Products Co., Solici-
                 tation No. FTN-EW-A3002-N-4-6-82            08/20/82
                                75
                                                               APPENDIX I
                                                               Page 30 of 34

                          REPORT REGISTER
                          CONTRACT AUDITS
                                                                  Date of
Number                                Title                       Report

lB-20874-ll-ll      Letter Report - Preaward Evaluation of
                    Supplemental A/E Pricing Proposal,
                    The Architrave Partnership, Contract
                    No. GS-llB-1906l                             08/20/82

2C-20457-07-02      Price Reduction and Defective Pricing,
                    National Laboratories, Contract No.
                    GS-07S-06397                                 08/23/82

lL-207l9-ll-11      Lease Escalation Proposal, Equitable
                    Life Assurance Society of the U.S. ,
                    Lease No. GS-03B-7005l                      08/24/82

2B-20822-00-26-D    Evaluation of Price Proposal, Hamilton
                    Watch Co., Inc., Solicitation No.
                    WFC-AF-NN-4599-5-5-82                        08/24/82

2S-20679-00-07      Letter Report - Price Reduction and
                    Defective Pricing Review, Harris
                    Data Communications, Inc., Contract
                    No. GS-00C-0170l                             08/25/82

lD-20 818 -06 -06   Evaluation of Claim for Increased Costs,
                    Hof Construction Co., Inc., St. Louis,
                    Missouri, Contract No. GS-06B-81130         08/25/82

IN-2085l-05-05      Preaward Evaluation of Proposed Base
                    Period Operating Costs, Tishman
                    Midwest Management Corp., Agent for
                    the Landlord, Solicitation No.
                    GS-05B-13969                                 08/25/82

2B-20856-ll-05      Preaward Evaluation of Price Proposal,
                    Community Metal Products Corp.,
                    Solicitation No. WFC-A2-N-46l9-4-8-82       08/25/82

2B-20687-00-ll      Preaward Evaluation of Pricing
                    Proposal, Showcase Corp., Solicitation
                    No. FCGE-B9-75224-N                         08/26/82

lL-20870-ll-ll      Lease Escalation Proposal, Nash Street
                    Associates, Lease No. GS-03B~60158          08/26/82

2R-20 831-0 0-0 2   Letter Report - Preaward Evaluation
                    of Pricing Proposal, Exxon Office
                    Systems Co., Solicitation No.
                    GSC-CDPS-C-0002l                            08/27/82
                                 76
                                                            APPENDIX I
                                                            Page 31 of 34

                       REPORT REG ISTER
                       CONTRACT AUDITS

                                                               Date of
Number                             Title                       Report

2S-l0648-00-07   Defective Pricing Audit, Micom Data
                 Systems, Inc., Contract Nos.
                 GS-00C-01886 and GS-00C-02524                08/30/82

2Q-208l9-00-05   Preaward Evaluation of Price Proposal,
                 Northern Telecom, Inc., Solicitation
                 No. GSC-CDPS-C-0002l-N-5-12-82               08/31/82

2S-20095-00-05   Price Reduction and Defective Pricing,
                 Motorola, Inc., Communications Group,
                 Contract No. GS-00C-90109, Base
                 Contract Period                             09/02/82

lB-20855-02-02   Preaward Evaluation of Pricing Proposal
                 for Supplemental A/E Services, Robson &
                 Woese, Inc., Contract No. GS-02B-23l62       09/02/82

lC-2084l-ll-ll   Preaward Evaluation of Pricing Proposal,
                 Advanced Energy Control Systems, Inc.,
                 Contract No. GS-1IC-10462                   09/03/82

lL-2064l-02-02   Lease Escalation Proposal, Astorill
                 Assoc., One Astor Plaza, 1515 Broadway,
                 New York, New York, Lease No.
                 GS-02B-15547                                09/07/82

lA-20632-0l-0l   Preaward Evaluation of A/E Proposal,
                 Webster, Baldwin, Day, Rohman               09/09/82

2C-20655-0l-05   Letter Report - Price Reduction and
                 Defective Pricing, American Drapemasters,
                 Division of Northway Cleaners, Inc.,
                 Contract No. GS-01S-07830                 09/09/82

lB-2067l-07-07   Preaward Evaluation of A/E Pricing
                 Proposal for Supplemental A/E Services,
                 State of Texas, Richard Armstrong,
                 Architect, Inc.                             09/09/82

2B-20833-0l-02   Letter Report - Preaward Evaluation of
                 Pricing Proposal, Dun & Bradstreet, Inc.,
                 Contract No. GS-01S-07959                 09/09/82

lD-20720-1l-ll   Claim Proposal for Differing Site
                 Conditions and Delays, Kora & Williams
                 Corp., Contract No. GS-03B-78332            09/10/82

lL-2075l-02-02   Lease Escalation Proposal, Astorill
                 Assoc., One Astor Plaza, 1515 Broadway,
                 New York, New York, Lease No.
                 GS-02B-18664                                09/10/82
                              77
                                                              APPENDIX I
                                                              Page 32 of 34
                         REPORT REG ISTER
                         CONTRACT AUDITS

                                                                 Date of
Number                               Title                       Report
                        --------------------------
2J-20927-04-04     Letter Report - Superb Maintenance
                   Services, Inc., Proposal to Provide
                   Janitorial Services, Memphis, Tennessee      09/10/82

lL-20829-08-08     Lease Escalation, Lincoln Tower Building,
                   Co., Lincoln Tower Building, Denver,
                   Colorado, Lease No. GS-08B-l0732          09/10/82

lL-20750-l0-l0     Evaluation of Third Year Operating
                   Costs Under Lease No. GS-lOB-04552,
                   The Equitable Center, Salem, Oregon          09/13/82

2J-209l3-08-08-D   Preaward Evaluation of Price Proposal,
                   Air Logistics Corp., Solicitation
                   No. 8YCO-E8-D2AER                           09/14/82

lQ-20846-09-09     Letter Report - Post Award Review of
                   Labor-Hours Contracts, Signet Testing
                   Laboratories, Inc., Hayward, California,
                   Contract Nos. GS-09B-C-8208-SF and
                   GS-09B-C-8206-SF                            09/15/82

2E-2088 0-10-02    Letter Report - Preaward Evaluation
                   of Qualifications of Bidder Under
                   the Walsh-Healey Public Contracts
                   Act, GFC Manufacturing Co., Inc.,
                   Solicitation No. 10PN-HRS-0095              09/15/82

lL-20848-09-09     Letter Report - Lease Escalation
                   Proposal, California State Automobile
                   Assoc., Lease No. GS-09B-75262              09/16/82

lL-20830-08-08     Lease Escalation Proposal, Del E. Webb
                   Realty and Management Co., Prudential
                   Plaza Building, Denver, Colorado,
                   Lease Nos. GS-08B-l0869 and GS-OBB-l0870    09/17/82

2J-20685-l0-l0     Preaward Evaluation of Pricing Proposal,
                   Big Boy Facilities Maintenance and
                   Services, Inc., Contract No.
                   GS-10B-50B6l-01                             09/20/82

2J-20926-06-06     Preaward Evaluation of Pricing Proposal,
                   Profess ional Technical Services, Inc.,
                   St. Louis, Missouri, Contract No.
                   GS-06B-27620-0l                             09/20/82

2S-l0629-00-03     Letter Report - Price Reduction,
                   QYX Products, Division of Exxon
                   Enterprises, Inc., Contract No.
                   GS-00C-OlB12                                09/21/82
                                78
                                                          APPENDIX I
                                                          Page 33 of 3'!

                       REPORT REGISTER
                       CONTRACT AUDITS

                                                             Date of
Number                             Title                     Report

lB-20695-ll-ll   Preaward Evaluation of Supplemental
                 A/E Pricing Proposal, Construction
                 Management Collaborative/Devrouax &
                 Purnell, Joint Venture, Contract No.
                 GS-llB-1903l                               09/21/82

2B-20704-ll-ll   Letter Report - Cost and pricing Data,
                 Acme Visible Records, Inc., Contract
                 No. GS-00S-237l5                           09/21/82
2J-20879-05-05   Preaward Evaluation of Price Proposal,
                 Rainey's Security Agency, Inc.,
                 Solicitation No. GS-05B-42252              09/21/82

2J-20922-04-04   Preaward Evaluation for Cleaning
                 Services, Raleigh, North Carolina,
                 Colbar, Inc.                               09/21/82/

2J-20924-0l-0l   Evaluation of Pricing Proposal,
                 M&H Building Services, Inc.                09/21/82

lA-20858-04-04   Preaward Evaluation of A/E Pricing
                 Proposal, Charleston Courthouse Annex      09/22/82

lL-20869-ll-ll   Lease Escalation Proposal, Ballston
                 Center Tower No.3, Lease No.
                 GS-03B-5734                                09/22/82

2R-20782-00-09   Preaward Evaluation of a Pricing
                 Proposal, Computer Sciences Corp.,
                 Solicitation No. GSC-CDPCS-A-00004-
                 N-5-20-82                                  09/23/82

2K-20835-05-02   Cost Plus Award Pee Contract,
                 Custodial Guidance Systems, Inc.,
                 Contract Nos. GS-05B-4l90l(NEG),
                 GS-05B-4l90l(NEG)-2, and
                 GS-05B-4l90l(NEG)-3                        09/24/82
2C-I0635-09-04   Price Reduction and Defective Pricing,
                 Dubois Chemicals, Inc., Cincinnati,
                 Ohio                                      09/27/82

lB-20943-ll-ll   Preaward Evaluation of Supplemental
                 A/E Pricing Proposal, Mueller Assoc.,
                 Inc., Contract No. GS-llB-19063           09/27/82

                             79
                                                                APPENDIX I
                                                                Page 34 of 34
                             REPORT REGISTER
                             CONTRACT AUDITS
                                                                   Date of
Number                                   Title                     Report
                              ----------------
2B-20706-00-01       Preaward Evaluation of Pricing Proposal,
                     Nashua Corp.                                 09/28/82
2Z-20950-00-04       Accounting System Survey
                     Quality Manufacturing, Inc.                  09/28/82

2R-20946-00-05       Preaward Evaluation of Price Proposal,
                     Motorola, Inc., Communications Group,
                     Solicitation No. GSC-CDPCE-0019-N-6-
                     29-82                                        09/29/82

2Z-20950-00-04       Letter Report - Pre award Survey of
                     Contractor's Accounting System,
                     Quality Manufacturing, Inc.,
                     Talladega, Alabama                          09/29/82

2C-I006 8 -0 0-0 3   Post Award Audit, Stanley Vidmar, Inc.,
                     Multiple Award Schedule Contract Nos.
                     GS-00S-41246, 61071, 61736, and 81683       09/30/82

2G-20237-07-07       Letter Report - Vehicle Rental
                     Contracts, American International
                     Rent-A-Car, Houston, Texas, Contract
                     Nos. GS-07S-03713 and 06228                 09/30/82

2G-20673-07-07       Letter Report - Vehicle Rental
                     Contracts, American International
                     Rent-A-Car, Phoenix, Arizona, Contract
                     Nos. GS-07S-20639 and 07879                 09/30/82

2J-20836-10-10       Preaward Evaluation of Pricing Proposal,
                     Decor Maintenance, Inc., Contract No.
                     GS-IOB-50845-01                             09/30/82

lA-20872-11-11       Pre award Evaluation of A/E Pricing
                     Proposal, Kidde Consultants, Inc.,
                     Contract No. GS-03B-89057                   09/30/82

2B-20938-00-11       Preaward Evaluation of Pricing
                     Proposal, Federal Sales Service, Inc.,      09/30/82

                     Note:   Three contract audit reports
                             were issued to the Office of
                             Investigations and are not
                             included in the reports listed
                             above.

                                   80
                                                              APPENDIX II
                                                              Page 1 of 4

                          REPORT REGISTER
                         INSPECTION REPORTS

                                                                Date of
Number                                Title                     Report

Leasing Program

NC-PBS-L-O 1-82     Inspection of VA Clinic, Grand Rapids,
                    Michigan                                   04/08/82

NC-PBS-L-14-82      Preaward Lease Review, Detroit-Canada
                    Tunnel                                     04/15/82

NC-PBS-L-18-82      Preaward Lease Review, NCR Glen Ellyn,
                    Illinois                                   05/07/82

W-PBS-L-O 1-82      Lease Enforcement at 1425 N.E. Irving
                    Street, Portland, Oregon                   05/12/82

NC-PBS-L-19-82      HUD Area Office, 547 W. Jackson
                    Boulevard, Chicago, Illinois               OS/21/82

PBS-L-02-82         Review of Allegations of Charles L.
                    Oddenino, Washington, D.C.                 06/04/82

NC-PBS-L-02-82      Inspection of PHS Clinic, Cleveland,
                    Ohio                                       06/09/82

S-PBS-L-08-82       SSA Data Center, Albuquerque, New
                    Mexico, Lease Nos. GS-07B-10082
                    and GS-07B-ll089                           06/16/82

T-PBS-L-03-82       The Landow Building, Lease Renewal,
                    Lease No. GS-03B-6ll4                      07/22/82

NC-PBS-L-17-82      SSA District Office, 4415 N. Milwaukee,
                    Chicago, Illinois                          08/02/82

T-PBS-L-02-82       Union Center Plaza, 941 N. Capital
                    Street, N.E., Washington, D.C.             08/27/82

PBS-L-04-82         Lease Review of Donahoe Building           09/02/82

NC-PBS-L-17-82(a)   SSA District Office, 9020 S. Stoney
                    Island Avenue, Chicago, Illinois           09/09/82




                                 81
                                                            APPENDIX II
                                                            Page 2 of 4:


                          REPORT REGISTER
                         INSPECTION REPORTS

                                                               Date of
Number                               Title                     Report
Buildings Operations Program

NC-PBS-B-20-S2     Review of Contract Administration and
                   Work in Progress, u.s. Customs House,
                   3rd Floor, Chicago, Illinois               04/20/82

PBS-C-09-Sl        Review of Amendment No.7, A/E Design,
                   Contract No. GS-03B-9902l, Smithsonian
                   Annex, Suitland, Maryland                  04/30/82

NC-PBS-B-09-Sl     Additional Parking, Landscaping and
                   Fencing, Federal Center, St. Louis,
                   Missouri                                   05/05/82

NC-PBS-B-02-S2     Miscellaneous Improvements, Grand
                   Island, Nebraska                           05/05/82

W-PBS-C-OS-S2      Roofing Replacement, Various Buildings
                   at the Federal Center, Almada,
                   California                                 05/06/82

S-PBS-C-06-S2      New Construction Project, u.S.
                   Courthouse Annex, Miami, Florida           OS/20/82

PBS-B-19-82        Inspection of Tenant Complaints,
                   1405 I Street, N.W., Washington, D.C.,
                   Lease No. GS-03B-5543                      OS/28/82

W-PBS-C-07-82      Roofing Replacement, Stockton,
                   California                                 06/04/82

NC-PBS-B-23-82     ACO Installation, Internal Revenue
                   Service, Chicago, Illinois                 06/08/S2

S-PBS-C-15-82      Space Alteration, National Archives
                   and Records Service, East Point,
                   Georgia                                   06/08/82

W-PBS-C-08-8l      Forest Service Office, Custer,
                   South Dakota                              06/09/82

NC-PBS-B-22-82     Masonry and Roof Repairs, FSS Depot,
                   Chicago, Illinois                         06/14/82

S-PBS-C-04-82      Space Alterations, Internal Revenue
                   Service, Clamblee, Georgia                06/17/82
                                82
                                                            APPENDIX II
                                                            Page 3 of 4

                       REPORT REGISTER
                      INSPECTION REPORTS

                                                               Date of
Number                             Title                       Report

NC-PBS-B-15-8l   Replacement of Windows, Installation
                 of Air-conditioning and Exterior
                 Painting at 1709 Jackson Street,
                 Omaha, Nebraska, Contract No.
                 GS-06B-03480                                 06/18/82
NC-PBS-B-18-82   Jeffersonville, Indiana, Field Office       06/22/82
NC-PBS-B-20-8l   Fire Protection "G" Warehouse,
                 1500 E. Bannister Road, Kansas City,
                 Missouri, Contract No. GS-06B-8lll0          07/14/82

PBS-B-3l-82      Upgrade Electrical System and Repair
                 Restrooms, GAO Building, Washington,
                 D.C., Contract No. GS-llB-2205l             07/16/82

NC-PBS-B-25-82   Electrical Distribution System
                 Improvement, FSS Depot, Chicago,
                 Illinois                                    08/02/82
S-PBS-C-2l-82    Lease Alteration to Install an
                 Uninterruptible Power Supply System at
                 the National Water Quality Laboratory,
                 Doraville, Georgia                          08/09/82

NC-PBS-B-24-82   Court Improvement, Milwaukee, Wisconsin     08/18/82

W-PBS-C-17-82    RWA Building Alteration in Leased
                 Buildings, Region 9                         09/01/82

PBS-C-07-82      Alterations to 2nd Floor, 1800 G Street,
                 N.W., Washington, D.C.                      09/03/82

NC-PBS-B-17-82   Twin Cities Field Office, Minneapolis/
                 St. Paul, Minnesota                         09/09/82

NC-PBS-B-19-82   Ommission and Defects Overlooked in
                 Final Inspection, Everett McKinley
                 Dirksen Building, Chicago, Illinois         09/09/82




                              83
                                                               APPENDIX II
                                                               Page 4 of 4

                          REPORT REGISTER
                         INSPECTION REPORTS

                                                                  Date of
Number                                 Title                      Report
S-PBS -C-2 2- 82    Roofing at the NARS Federal Records
                    Center, East Point, Georgia                  09/16/82
PBS-C-06-82         Renovation to Building *3, Suitland,
                    Maryland                                     09/30/82


Federal Supply Program

NC-FSS-16-8l        Thermodyne International, Ltd.,
                    Contract No. GS-05S-l0520                   04/21/82
S-FSS-lO-82         Review of the Intended Procurement
                    of a Replacement Telephone System,
                    Asheville, North Carolina, Solicita-
                    tion No. CDPP-W-8l-J-A0009-W4               05/12/82

S-FSS-01-81         Administration of Contracts for
                    Padlocks, NSN-5340-00-292-0896 Was
                    Effective in Region 4                       OS/28/82
FSS/TPUS-F-08-82    Defective Paper Used for the Manufacture
                    of Treasury Check Envelopes                 06/02/82

NC-FSS-04-82        Procurement of Plastic Bags, American
                    Western Corp., Contract No. GS-05S-1l867    06/14/82

NC-FSS-02-82        Inspection of Plastic Bags, Chicago
                    Transparent Products                        07/26/82

FSS/TPUS-T-01-8l    Interagency Motor Pool, Albuquerque,
                    New Mexico                                  07/29/82

S-FSS-09-82         Selected Contracts Effected by Negotia-
                    tion Pursuant to 41 USC 252(c)(10)
                    by the Commodity Operations Branch          08/12/82
S-FSS-02-8l         Origin Quality Control for Padlocks,
                    NSN 5340-00-292-0896, Region 2              09/28/82


Reports Issued Outside GSA

S-PBS-C-03-82      New Construction, Tohatchi High School,
                   Tohatchi, New Mexico                         07/06/82

                                  84
                                                       APPENDIX III
                                                       Page 1 of 1

                    SUMMARY OF OIG PERFORMANCE
                       IN FISCAL YE"AR 1982~-


- Issued 721 audit reports, 202 covering GSA's internal op-
  erations, 452 involving GSA's contracting function, and
  67 relating to inspections.

- Performed 145 followups of internal audit reports.

- Recommended savings of over $148 million.

- Achieved $94 million in sustained cost avoidance.

- Obtained commitments from management to seek the recovery
  of over $6.4 million.

- Opened 646 new investigations and closed 765.

- Referred 90 cases involving 127 subjects to prosecuting
  authorities.

- Secured 29 indictments/informations and 31 convictions on
  criminal matters referred.

- Referred 28 cases to other Federal and State agencies for
  further investigation.

- Referred 198 cases involving 205 subjects to management
  for administrative action.

- Secured 49 reprimands, 17 suspensions, 3 demotions and
  34 terminations.

- Referred 8 cases recommending the suspension of 35 private
  contractors.

- Referred 16 cases recommending debarment of 43 contractors.

- Secured 34 contractor suspensions and 56 contractor de-
  barments.

- Reviewed and commented on 75 legislative and numerous regu-
  latory matters.

- Served 12 subpoenas to secure information vital to our oper-
  ations.
- Referred 12 cases involving 26 subjects to the Department of
  Justice for civil action with potential recoveries of over
  $7 million.

- Processed 1,521 hotline calls and letters, 74 GAO referrals,
  and 25 other agency referrals.
                              85
